<html>
<title> - ENFORCEMENT OF THE FAIR HOUSING ACT OF 1968</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                   ENFORCEMENT OF THE FAIR HOUSING ACT 
                                OF 1968 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 12, 2008

                               ----------                              

                           Serial No. 110-183

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov












              ENFORCEMENT OF THE FAIR HOUSING ACT OF 1968





















 
                  ENFORCEMENT OF THE FAIR HOUSING ACT 
                                OF 1968

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2008

                               __________

                           Serial No. 110-183

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-850 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














































                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. ``BOBBY'' SCOTT, Virginia  JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel



















                            C O N T E N T S

                              ----------                              

                             JUNE 12, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution, Civil 
  Rights, and Civil Liberties....................................     3
The Honorable Melvin L. Watt, a Representative in Congress from 
  the State of North Carolina, and Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     5

                               WITNESSES

Ms. Jessie K. Liu, Deputy Assistant Attorney General, Civil 
  Rights Division, Department of Justice
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Ms. Kim Kendrick, Assistant Secretary, Office of Fair Housing and 
  Equal Opportunity, Department of Housing and Urban Development
  Oral Testimony.................................................    15
  Prepared Statement.............................................    16
Mr. James H. Carr, Chief Operating Officer, National Community 
  Reinvestment Coalition
  Oral Testimony.................................................    37
  Prepared Statement.............................................    39
Ms. Suzanne Sangree, Chief Solicitor, City of Baltimore Law 
  Department
  Oral Testimony.................................................    53
  Prepared Statement.............................................    54
Mr. Stan Liebowitz, Ashbel Smith Professor of Managerial 
  Economics, University of Texas at Dallas
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Ms. Audrey J. Wiggins, Director, Fair Housing and Environmental 
  Justice Project, Lawyers' Committee for Civil Rights Under Law
  Oral Testimony.................................................    64
  Prepared Statement.............................................    66
Ms. Shanna L. Smith, President and CEO, National Fair Housing 
  Alliance
  Oral Testimony.................................................    79
  Prepared Statement.............................................    81

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, 
  Chairman, Committee on the Judiciary, and Member, Subcommittee 
  on the Constitution, Civil Rights, and Civil Liberties.........     3

                                APPENDIX

Material Submitted for the Hearing Record........................   121


              ENFORCEMENT OF THE FAIR HOUSING ACT OF 1968

                              ----------                              


                        THURSDAY, JUNE 12, 2008

              House of Representatives,    
              Subcommittee on the Constitution,    
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Jerrold 
Nadler (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Nadler, Davis, Wasserman 
Schultz, Scott, Watt, Franks, and Jordan.
    Also Present: Representative Green.
    Staff present: David Lachmann, Majority Subcommittee Chief 
of Staff; LaShawn Warren, Majority Counsel; Tracie Powell, CBC 
Fellow; Caroline Mays, Majority Professional Staff Member; Paul 
Taylor, Minority Counsel; and Crystal Jezierski, Minority 
Counsel.
    Mr. Nadler. This hearing of the Subcommittee on the 
Constitution, Civil Rights, and Civil Liberties will come to 
order.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing. The Chair anticipates doing so only in 
the event there are votes during the hearing, which hopefully 
there won't be.
    I now recognize myself for 5 minutes for an opening 
statement.
    Today we continue our oversight of the Department of 
Justice's Civil Rights Division by examining the enforcement of 
the Fair Housing Act of 1968. We are also joined by 
representatives of the Department of Housing and Urban 
Development, which also has an enforcement role, and a 
distinguished panel of witnesses to discuss the state of fair 
housing enforcement.
    The right to be treated equally, free from discrimination, 
in all matters affecting access to housing is one of the 
fundamental rights guaranteed by law. One only has to look at 
unequal access to good housing, the current foreclosure crisis, 
continuing segregation of our communities, and predatory 
lending practices that appear to have treated communities of 
color more harshly than other communities, among other 
disturbing patterns, to understand the dangerous impact that 
housing discrimination can and does have on this Nation.
    Housing discrimination is everyone's problem. It divides 
our society, it affects the stability of our communities, and 
has even helped to disrupt our capital market. More than 
anything, it is unjust and has no place in a decent society.
    Laws prohibiting discrimination in housing--whether rental 
housing, homeownership or access to fair credit--are important. 
But they are useless if not vigorously enforced.
    That is the purpose of today's hearing. I look forward to 
the testimony of our witnesses. I am especially interested in 
determining whether we can do a better job enforcing the laws 
we have and whether there are gaps in current law that need to 
be addressed by Congress.
    I want to welcome our witnesses, and I look forward to your 
testimony.
    I will now recognize for an opening statement the Ranking 
minority Member, the gentleman from Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you all for being here today.
    Mr. Chairman, today we are here to conduct oversight over 
the housing section of the Department of Justice, which 
continues, in my judgment, to vigorously enforce the Nation's 
laws against discrimination in housing.
    Chairman Conyers and representatives of the civil rights 
groups held a press conference regarding the current mortgage 
debate on March 19th of this year. And at that event, Mr. 
Chairman, not a single speaker, not even Chairman Conyers, 
accused the Department of Justice of being lax in their 
prosecution of legitimate housing market discrimination cases.
    But less than a month later, Speaker Pelosi, on the 40th 
anniversary of the Fair Housing Act, took the opportunity to 
suddenly claim that Federal inaction in enforcing the housing 
discrimination laws has contributed to the current mortgage 
crisis, especially predatory lending practices.
    That claim is belied, Mr. Chairman, by the Justice 
Department's expansive efforts in prosecuting mortgage lending 
discrimination cases under Federal law. And I am glad we have 
the opportunity to rebut that claim today.
    The Fair Housing Act prohibits discrimination in 
residential real estate transactions. The Equal Credit 
Opportunity Act prohibits creditors from discriminating in any 
aspect of a credit transaction. Under the Department of Justice 
Operation Home Sweet Home initiative, the department conducted 
a record-high number of fair housing tests in fiscal year 2007 
to uncover housing discrimination.
    The disproportionate number of minorities that receive 
subprime loans in part is a result of the actions taken by 
Congress long ago when it passed the Community Reinvestment Act 
in 1977. That act was designed to direct easier credit to 
lower-income communities, and it has done that.
    That act requires the Federal Reserve Board and other 
financial regulators to rate banks on their lending practices 
within low-to moderate-income areas within their service areas. 
A bank's failure to make loans in such areas may cause 
regulators to halt bank expansion plans until the institution 
alters its lending practices.
    Consequently, banks and thrifts have increased their 
lending to low-and moderate-income borrowers. That is the basic 
premise. And although subprime lending is, to a degree, outside 
the act's purview because such lending has been undertaken in 
large part by financial service companies other than banks and 
thrifts, loans provided by bank affiliates can be counted to 
determine whether the bank is meeting the credit needs of their 
community.
    If they are included and if the affiliate is a subprime 
lender, such subprime affiliate loans could be included in a 
bank's performance rating. Indeed, institutions evaluated under 
the act issued about half of subprime mortgage loans, many of 
them of the riskier variety.
    So as we proceed with this discussion, we need to frankly 
address the effects of that act of 1977, which encouraged 
banks, through their affiliates that could be subprime lenders, 
to make riskier loans more easily available to low-income 
communities.
    As recently reported in National Review magazine, 
Countrywide is one of the biggest players in the subprime 
mortgage industry and has aggressively pushed subprime 
mortgages.
    For decades, the left advanced more credit for 
homeownership among the poor and especially among poor 
minorities. Their biggest policy success was the Community 
Reinvestment Act, passed in 1977 and updated several times.
    The L.A.-based Spanish-language publication, La Opinion, 
named Countrywide ``Corporation of the Year'' for its work with 
Hispanics. In 2005, Countrywide won the ``Best in Minority 
Lending'' award from the Lending Industry Diversity Conference.
    Everything changed when the flip side of easy credit became 
apparent. The New York Times made the shocking discovery that 
when minorities disproportionately take out the riskiest 
mortgage, they disproportionately experience foreclosures as 
well.
    The result of Congress' action unfortunately hurt many 
consumers that were supposed to be helped. And I hope we can 
explore these and other issues at the hearing today and make 
sure the current mortgage market tension is not repeated in the 
future.
    We need fair lending practices, Mr. Chairman. We need to 
never discriminate against anyone. But we need to make sure 
that our policies don't make things worse for those that we 
ostensibly are trying to help.
    And, with that, I yield back.
    Mr. Nadler. I thank the gentleman.
    And I now will yield for an opening statement 5 minutes to 
the distinguished Chairman of the full Committee, the gentleman 
from Michigan.
    Mr. Conyers. Well, I ask that my statement be put in the 
record, Chairman Nadler.
    Mr. Nadler. Without objection.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
  in Congress from the State of Michigan, Chairman, Committee on the 
Judiciary, and Member, Subcommittee on the Constitution, Civil Rights, 
                          and Civil Liberties
    Although it's been nearly 40 years since the Fair Housing Act 
banned housing discrimination, complaints alleging unfair treatment of 
minorities, the disabled, families, and other groups are increasing. Of 
an estimated 3.7 million fair housing violations annually, 
approximately 2 million involve race discrimination.
    Admittedly, some progress has been made in reducing levels of 
residential segregation and discrimination since the passage of the 
Act. But let's face it--most Americans still live in communities 
largely divided by race and ethnicity.
    Thus, the obvious question I have for our witnesses--particularly 
in light of the ever-escalating mortgage crisis--is what actions have 
Justice and HUD taken to ensure that the Fair Housing Act is enforced 
effectively?
    The facts clearly underscore the need for greater enforcement. Let 
me highlight three particular concerns.
    First, despite claims that the Administration has continued 
vigorous enforcement of the FHA, the Government's caseloads and charges 
have steadily decreased and relatively few cases have been brought on 
behalf of racial and ethnic minorities, particularly pattern and 
practices cases.
    HUD's own data suggests that out of approximately 3.7 million 
annual fair housing violations, the Department, for example, only 
processed 11,000 complaints in 2006, which is less than one-half of 1% 
of the total estimated number of housing violations.
    Second, I sense that DOJ's longstanding commitment to combat race 
discrimination in housing has steadily declined over the years. The 
Department filed fewer fair housing cases in the past two years than in 
previous years.
    Look, we're not talking about thousands of cases or even hundreds 
of cases being filed. In 2007, for example, the DOJ filed only 35 fair 
housing cases. In 2006, it filed 31 cases. In contrast, the DOJ filed 
42 cases in 2005, and and 53 cases in 2001. And, of the 31 housing and 
civil enforcement cases DOJ brought in 2006, only eight involved claims 
of race discrimination.
    Beyond this, I am troubled by Attorney General Mukasey's recently 
announced refusal to create a national taskforce to combat the 
country's mortgage fraud crisis. Doesn't he read the newspapers or 
listen to the television news reports about rampant fraud and predatory 
lending by brokers and lenders?
    Finally, we just learned that HUD's mortgage policy may have 
actually helped to fuel the subprime mortgage crisis that is at the 
heart of today's turbulent economy. The Washington Post reported 
Tuesday that, while regulators warned that subprime lenders were 
saddling borrowers with mortgages they could not afford, HUD stuck with 
an outdated policy that allowed Freddie Mac and Fannie Mae to count 
billions of dollars they invested in subprime loans as a public good 
that would foster affordable housing.
    I want to know from our witnesses why the number of discrimination 
cases filed by DOJ has declined, even as the number of complaints has 
risen. I also hope to learn if, in fact, HUD irresponsibly continued 
policies that helped create the mortgage crisis we find ourselves in 
today.
    Many people forget that Dr. King focused heavily on fair housing 
issues, with a keen recognition of what costs our society would pay for 
continued patterns of discrimination and segregated living. Passage of 
the Fair Housing Act was a fitting tribute to his efforts in this 
regard.
    The Fair Housing Act is now one of the most powerful tools in our 
civil rights arsenal; but a tool is only effective when wielded with 
skill and intent.
    I look forward to hearing from or witnesses today as we seek to 
determine whether the federal government is wielding this tool 
effectively.

    Mr. Conyers. I am looking for the press release or the 
press hearing that my friend, the Ranking Member, Trent Franks, 
referred to where nobody made a peep about enforcement of 
discrimination in housing, the March 19 press conference with 
civil rights leaders on the subprime crisis. But I will get to 
that, because I am here to confess the error that I said 
nothing, I didn't make a peep, because I am going to make a big 
peep this morning.
    This is one of the most disturbing trends in our history. 
We were talking it over with LaShawn Warren and others. Three 
and a half million annual fair housing violations, according to 
HUD's own data. Last year, DOJ filed 35 fair housing cases. In 
2006, they filed 31 cases. In 2005, they filed 42 cases. In 
2001, they filed 53 cases.
    Now, for years and years, we have been saying, how come we 
can't get rid of the inner city, the ghettos, the places in 
urban America that nobody will live in but those that are 
forced to live there? And at the rate that we are going, there 
will be people sitting in this hearing room with the same 
representatives from DOJ and HUD, and there will be somebody 
replacing all of us up here, and we will be saying the same 
thing. Because, at the rate we are going, this problem will 
never be solved.
    The reason we can't get rid of inner cities and slums and 
ghettos is because, if we are hitting 3.7 million violations--
at least 1.7 million are directly racially connected to race 
problems; the rest are other problems, and I am in the process 
of finding out what the other problems are--it is 
arithmetically impossible to ever eliminate the slums. We will 
be doing this forever.
    So, Trent, I owe you a debt of thanks for pointing out how 
slack I have been on this matter, even as recently as March 
19th. Well, I am glad--that is what makes this Committee so 
unique. We work together. This is great.
    This is an incredible situation that requires the 
Department of Justice and Housing to really get to the bottom 
of it. So I congratulate both my Chairman and Ranking Member 
for holding the hearing here today, and I thank you.
    Mr. Nadler. I thank the gentleman.
    In the interest of proceeding to our witnesses and mindful 
of our busy schedules, I ask that other Members submit their 
statements for the record.
    Mr. Watt. Mr. Chairman?
    Mr. Nadler. The gentleman is recognized.
    Mr. Watt. I wanted to ask unanimous consent to make a brief 
opening statement.
    Mr. Nadler. Without objection.
    Mr. Watt. And it will be brief. And, actually, this is 
spontaneous. It was not planned. It was provoked by some of our 
Ranking Member's comments, because I think he has left the 
wrong impression that this is somehow a conspiracy of the left 
to increase homeownership in this country and thereby drive 
African-Americans and other minorities to subprime lenders. I 
think that would be a terribly wrong impression to allow to 
stand on the record.
    There is and has been a very aggressive effort of many of 
us to increase homeownership because we recognize that 
homeownership in our community is the primary means of gaining 
wealth. We don't have stocks and bonds and retirement accounts. 
So, historically in our community, a means of getting any 
wealth is to own a home. And we have been unapologetic 
advocates of increased homeownership in minority communities.
    But to leave the impression that we condone 
disproportionate numbers of African-Americans and other 
minorities being given subprime loans, many of whom would have 
qualified for prime loans had they not been discriminated 
against, is to leave a very erroneous impression.
    And to not acknowledge the complicity, the active 
participation in that by this Administration would be equally 
inaccurate, because it was HUD that suggested that subprime 
loans be given CRA credit by lenders.
    It was HUD that looked the other way while they should have 
been regulating lenders when we were crying out to them as 
Members of the Congressional Black Caucus and on the Financial 
Services Committee, on which I sit and into which I introduced 
the first predatory lending bill three Congresses ago, not in 
the middle of this crisis.
    It would be in error to leave that impression on our record 
in this communities.
    And it would be in error to leave the impression that this 
Department of Justice has not been complicit in it, because as 
recently as last week, the Attorney General made a decision 
that he is not going to set up a special unit to look into all 
of the fraud and misrepresentation and predatory lending 
practices that took place that led to this economic crisis. And 
we have been crying out for the Attorney General to take the 
lead on that, and he has refused to do it.
    I know the Chair wants to move forward with the hearing, 
but I didn't come in here planning to make this statement. I 
just want the Chair to know that this was provoked. It was not 
premeditated. And for us to allow those kinds of statements and 
innuendoes that it was somehow our fault that we are being 
discriminated against and channeled to particular communities 
and channeled to predatory lenders and subprime loans is just 
irresponsible if we allow that to be any statement in this 
Committee or any other Committee of this Congress.
    And I thank the Chairman for allowing me this opportunity 
to correct the record, or at least give a balance to it, from 
what our Ranking Member has said.
    Thank you. I yield back.
    Mr. Nadler. Thank you.
    And I ask that other Members submit their statements for 
their record. Without objection, all Members will have 5 
legislative days to submit an opening statement for the record.
    We will now turn to our first panel of witnesses.
    As we ask questions of our witnesses, the Chair will 
recognize Members in the order of their seniority on the 
subcommittee, alternating between majority and minority, 
provided the Member is present when his or her turn arrives. 
Members who are not present when their turn begins will be 
recognized after the other Members have had the opportunity to 
ask their questions. The Chair reserves the right to 
accommodate a Member who is unavoidably late or only able to be 
with us for a short time.
    Your written statements will be made part of the record in 
its entirety. I would ask each of you to summarize your 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light at your table. When 1 minute 
remains, the light will switch from green to yellow, and then 
red when the 5 minutes are up.
    I will now introduce our first panel.
    Jessie Liu has served as deputy assistant attorney general 
in the Civil Rights Division of the Department of Justice since 
December 2007. Her duties include supervising the division's 
Housing and Civil Enforcement section, which enforces the Fair 
Housing Act of 1968.
    Before she joined the Civil Rights Division, Ms. Liu served 
as an assistant U.S. attorney for the District of Columbia. She 
also has worked in the National Security Division of the Office 
of the Deputy Attorney General at the Department of Justice.
    Prior to her service at the department, Ms. Liu practiced 
law with the firm of Jenner & Block and served as a Federal 
judicial clerk. Ms. Liu earned her law degree from Yale Law 
School, where she was an editor of the Yale Law Journal; her 
undergraduate degree, summa cum laude, from Harvard University.
    Kim Kendrick is the assistant secretary in HUD's Office of 
Fair Housing and Equal Opportunity. Ms. Kendrick was formerly 
the senior counselor for the secretary and advised and 
represented Secretary Alphonso Jackson on a wide variety of HUD 
programs, policies and strategies.
    Before joining the Bush administration, Ms. Kendrick was 
the general counsel for Covenant House Washington. From 1998 to 
2002, she served as a regional administrator for the District 
of Columbia's Housing Authority. As HUD's assistant general 
counsel for insured housing and community development 
litigation from 1990 to 1995, Ms. Kendrick was responsible for 
nationwide Federal court litigation involving challenges to 
HUD's programs, policies and procedures. Ms. Kendrick provided 
agency offices counsel and advice concerning actual potential 
litigation regarding, among other issues, FHA single and 
multifamily mortgage insurance programs and the Community 
Development Block Grant program.
    A native of Pittsburgh, she received her bachelor of arts 
in sociology from Bowdoin College in New Brunswick, Maine, and 
a law degree from the University of Pittsburgh Law School.
    I am pleased to welcome both of you.
    It is the custom of the Committee to swear in witnesses. 
Would the witnesses please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Nadler. Let the record reflect that the witnesses 
answered in the affirmative.
    You may be seated. Thank you.
    The first witness I will recognize for 5 minutes is Ms. 
Liu.

TESTIMONY OF JESSIE K. LIU, DEPUTY ASSISTANT ATTORNEY GENERAL, 
          CIVIL RIGHTS DIVISION, DEPARTMENT OF JUSTICE

    Ms. Liu. Mr. Chairman, Ranking Member Franks, Members of 
the Subcommittee, it is a pleasure to appear before you this 
morning to represent the Department of Justice and the 
dedicated professionals of the Housing and Civil Enforcement 
Section of the Civil Rights Division, who work so hard to 
ensure nondiscriminatory access to housing, credit and public 
accommodation. I am pleased to report on some of the 
outstanding accomplishments of that section.
    This April, we commemorated the 40th anniversary of the 
Fair Housing Act, landmark legislation that outlawed 
discrimination on the basis of race, color, national origin or 
religion in the sale, rental or financing of housing. Since the 
original act was passed in 1968, Congress has reaffirmed and 
expanded this country's commitment to fair housing by extending 
the act's protections to include sex, disability, familial 
status and providing for much-needed enforcement tools.
    Although we have made progress over the last 40 years, 
there can be no question that housing discrimination exists 
today. Since 2001, the division has filed 248 cases to enforce 
the civil provision of the Fair Housing Act and obtained 
significant relief.
    In 2006, the Attorney General launched Operation Home Sweet 
Home, an initiative to combat housing discrimination focused on 
improving and expanding our fair housing testing program. Last 
fiscal year, we conducted more than 500 paired tests all across 
the country, 20 percent more than in any previous year.
    These tests are already producing new cases and significant 
results. For example, this January, we filed suit, alleging 
that the owner and operators of an apartment complex in 
Roseville, Michigan, engaged in a pattern or practice of 
denying apartments to African-Americans by falsely telling them 
that no apartments were available. In addition to that case, we 
have filed and settled three other cases based upon testing 
evidence just since last September.
    We also have achieved significant results in cases stemming 
from complaints filed with HUD. Just last month, we settled a 
particularly egregious case in which we alleged that the 
landlord of a housing complex in Virginia Beach, Virginia, 
imposed more restrictive rules on African-American tenants, 
verbally harassed African-American tenants with slurs and 
epithets, and evicted tenants by enforcing a limit of two 
children per family. The settlement we obtained requires the 
landlord to pay up to $319,000 to victims of discrimination and 
a $42,000 civil penalty.
    The division's enforcement of the Fair Housing Act 
protections against discrimination based on disability is also 
a vital element of our work. Since fiscal year 2005, we have 
obtained settlements requiring more than 14,500 apartments 
throughout the country to be made accessible to persons with 
disabilities under the Fair Housing Act.
    Cases alleging systemic sexual harassment by landlords also 
have been a priority. During this Administration, we have filed 
three times as many system sexual harassment cases under the 
Fair Housing Act as the same time period in the prior 
Administration. And we have achieved substantial relief for the 
victims of this kind of discrimination. Just in the past year, 
our sexual harassment settlements have provided for over $1 
million in monetary damages and civil penalties.
    In this brief statement, I have had time to highlight just 
a few of the division's many fair housing cases and 
investigations. But these examples demonstrate the division's 
ongoing and steadfast commitment to doing its part to eradicate 
housing discrimination and bring relief to victims of 
discrimination.
    We look forward to working closely and cooperatively with 
this Committee in its efforts to protect the fair housing 
rights of all Americans.
    I thank you, and I look forward to your questions.
    [The prepared statement of Ms. Liu follows:]
                  Prepared Statement of Jessie K. Liu

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Nadler. I thank you.
    We now recognize for 5 minutes Ms. Kendrick.

TESTIMONY OF KIM KENDRICK, ASSISTANT SECRETARY, OFFICE OF FAIR 
HOUSING AND EQUAL OPPORTUNITY, DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Ms. Kendrick. Thank you. Chairman Nadler, Ranking Member 
Franks and Members of the Subcommittee, good morning. I am Kim 
Kendrick, assistant secretary for the Office of Fair Housing 
and Equal Opportunity at the U.S. Department of Housing and 
Urban Development. On behalf of Secretary Steven Preston, I am 
truly honored to have this opportunity to testify before you 
today.
    I would like to submit my written testimony for the record.
    Forty years ago, Congress passed the Fair Housing Act and 
took a major step toward fulfilling Dr. King's dream of a 
united society. Today that landmark legislation guarantees that 
people can live where they want regardless of their race, 
color, national origin, religion, sex, familial status, and 
disability.
    Since that time, much progress has been made. Cities and 
neighborhoods are much less segregated, and African-Americans 
and other minorities enjoy more economic opportunities than 
ever before. Yet discrimination persists. For the last 2 
consecutive years, HUD and our State and local fair housing 
partners have received more than 10,000 complaints of 
discrimination. These are stark reminders that we still have a 
long way to go to fulfill America's promise of justice and 
equality for all.
    In my role, I oversee the office of HUD that has the 
principal responsibility for enforcement of the Fair Housing 
Act. In addition to the men and women at HUD who investigate 
housing discrimination complaints and the attorneys at HUD that 
help prosecute them and the Department of Justice attorneys who 
file suits in Federal court, there are 108 State and local 
agencies that enforce the law that provides rights, remedies 
and procedures that are substantially equivalent to those 
provided under the Fair Housing Act.
    Not only do we investigate complaints in an efficient 
manner, we also obtain significant relief for people whose 
rights have been violated. The department and its State and 
local partners reached resolution in 3,100 cases in fiscal year 
2007, obtaining more than $4.7 million in monetary relief for 
victims of discrimination through informal resolution and 
conciliation.
    My written statement includes several case examples that 
illustrate how our conciliation efforts achieve positive 
outcomes. But one case I will mention involves a family in 
Portland, Oregon, who has an autistic child.
    The family asked the apartment management company to move 
the family to a first-floor unit as an accommodation for the 
son's disability so they would not disturb the neighbors. The 
management company refused to move the family and also refused 
to extend their lease when it came up for renewal. HUD 
conciliated this case, obtaining $40,000 in relief for the 
child's family, plus an additional $10,000 donation to a 
charitable organization that focuses on autism.
    When the department learns of discrimination but no one 
comes forward to file a complaint, we exercise our authority to 
initiate investigations. To launch these investigations, which 
have a broad public impact, the department created an Office of 
Systemic Investigations within that Office of Fair Lending 
Division. The Fair Housing Lending Division initiates 
investigations when lending patterns suggest discrimination by 
a lender but no individual has come forward to file a 
complaint.
    So far this year, this division has selected targets for 
new lending investigations based on apparent disparities in 
loan pricing and denial rates between minority and White, non-
Hispanic loan applicants. Further, the Fair Lending Division 
selected an additional lending target this year based upon that 
lender's stated lending policy.
    And because enforcement alone is not enough, we have 
increased our efforts to educate the public and housing 
providers about their rights and their responsibilities under 
the Fair Housing Act.
    Most recently, we launched a national public service 
announcement campaign to educate the public about their fair 
lending rights. While the centerpiece of the campaign is a 30-
second public service announcement, the campaign also includes 
a toolkit that lists resources available to help consumers 
learn about the homebuying process and their lending rights and 
a series of town-hall forums to inform the public about HUD's 
efforts to reduce unfair and discriminatory lending practices.
    At HUD, we are committed to ensuring that each housing 
transaction in this country is fair and without discrimination. 
Thank you for the opportunity to testify before you today. And 
now I would like to show you our lending campaign's 30-second 
public service announcement.
    (Video played.)
    [The prepared statement of Ms. Kendrick follows:]
                   Prepared Statement of Kim Kendrick
    Chairman Nadler, Ranking Member Franks, and Members of the 
Subcommittee, good morning. I am pleased to have the opportunity to 
testify before you today on the state of fair housing in the United 
States.
    Forty years ago, in the wake of the assassination of Dr. Martin 
Luther King, Jr., this country passed the Fair Housing Act, which made 
it unlawful to discriminate in housing and housing-related transactions 
on the basis of race, color, religion, or national origin. Six years 
later, Congress expanded those protections to prohibit discrimination 
based on sex, and amended the law again in 1988 to prohibit 
discrimination against families with children and persons with 
disabilities.
    In the past forty years, our nation has made great progress in 
fulfilling the promise of equal opportunity in housing. Today, our 
cities and neighborhoods are less segregated, loan underwriting 
guidelines no longer spell out different policies based on race, and 
many building codes across the country now require new multifamily 
housing to be accessible to persons with disabilities.
    But discrimination persists. HUD studies show that African 
Americans, Hispanics, Asian Americans, and Native Americans receive 
consistently unfavorable treatment at least 20 percent of the time when 
they seek to purchase or rent a home. In some communities, persons with 
certain disabilities encounter unfavorable treatment in one out of two 
transactions. And more than half of the population is unaware that it 
is illegal to discriminate against families with children in housing.
    As the Assistant Secretary for Fair Housing and Equal Opportunity, 
I oversee the federal government office with the principal 
responsibility for enforcing the Fair Housing Act. However, we do not 
do it alone. We are aided by 108 state and local agencies that enforce 
laws that provide rights and remedies that are substantially equivalent 
to those provided under the federal law. We also work in close 
partnership with the Department of Justice, which has the authority to 
pursue cases against housing providers, lenders, and others who engage 
in a ``pattern and practice'' of discrimination. The Department of 
Justice also files suit in cases charged by HUD, when one of the 
parties elects to have the case heard in federal court.
    HUD's fair housing mission is broader than the investigation, 
conciliation, and adjudication of individual cases. The Department also 
conducts significant education and outreach activities in support of 
its enforcement operation. This includes the release of public service 
announcements and other material to educate the general population on 
its fair housing rights and remedies. The Department also conducts 
regular studies on the level and extent of housing discrimination in 
American society and public awareness studies of the rights protected 
under the law.
    The Department also manages two major fair housing programs which 
complement the Department's fair housing activities: the Fair Housing 
Assistance Program (FHAP), a $25.6 million program in FY 2008, which 
reimburses the 108 state and local agencies for the investigations they 
conduct under their substantially-equivalent laws, and the Fair Housing 
Initiatives Program (FHIP), a $24 million program in FY 2008, which 
provides grants to non-profit organizations to carry out private 
education and enforcement activities in support of the federal law. 
These activities include testing local housing providers to determine 
whether they treat applicants fairly, filing private fair housing 
litigation, and holding forums and seminars to educate consumers and 
housing providers alike.
    Then, finally, in addition to the Fair Housing Act, the Department 
administers several other fair housing laws that guarantee fair access 
and equal opportunity in housing. These laws include Title VI of the 
Civil Rights Act of 1964, which prohibits discrimination on the basis 
or race, color, and national origin in federally-assisted housing; 
Section 504 of the Rehabilitation Act of 1973, which prohibits 
discrimination on the basis of disability, in federally-assisted 
housing; Section 3, which requires recipients of federally-assisted 
housing funds to create economic opportunities for low-income persons 
in those communities; as well as several other authorities.
    The Department's enforcement of the federal Fair Housing Act, 
however, comprises its primary fair housing function. The Fair Housing 
Act, unlike the other authorities the Department administers, applies 
to virtually all housing transactions, public and private.
    HUD enforces the Fair Housing Act through investigation, 
conciliation, and adjudication of complaints from individuals who 
believe they have experienced discrimination and complaints the 
Department initiates on its own based on information that suggests a 
discriminatory housing practice has occurred. While the Department has 
increasingly exercised its authority to bring complaints on its own 
(having brought over 20 such complaints or investigations in the last 
two years), the Department dedicates most of its resources to the 
investigation of individual complaints of discrimination. The 
Department receives these complaints from individuals who write the 
Department by mail; file a complaint online at www.hud.gov/fairhousing; 
call HUD's toll-free Housing Discrimination Hotline at 1-800-669-9777 
or one of HUD's office's directly; or visit one of HUD's offices in 
person.
    HUD investigates each complaint and, as required under the Fair 
Housing Act, makes informal attempts to resolve the complaint through 
conciliation prior to making a formal determination on the merits. If 
conciliation fails, the Department issues a finding on the merits. The 
Department will dismiss the complaint if there is insufficient evidence 
to support the allegation of discrimination. Where the evidence 
supports a finding of discrimination, HUD will issue a charge--the 
equivalent of a lawsuit--before an Administrative Law Judge. In the 
Administrative Law Judge forum, HUD attorneys argue the case at no cost 
to the individual who faced the discrimination. If the Administrative 
Law Judge finds in HUD's favor, the judge may compensate the 
complainant for any injury, enjoin the housing provider or other entity 
from further discrimination, and impose a civil penalty. The parties, 
at the time HUD issues the charge, also have the right to elect to have 
the matter heard in United States District Court. If the parties elect 
to that forum, the Department of Justice will bring the suit on behalf 
of the government and at no cost to the individual victim of 
discrimination.
    One cannot comprehensively describe or assess national trends in 
fair housing enforcement without also examining the complaints handled 
by HUD's FHAP partners--108 state and local agencies that administer 
laws substantially equivalent to the Fair Housing Act. Of the 10,150 
complaints filed in FY 2007, FHAP agencies investigated approximately 
7,700 of those complaints, or 75%, of the complaints filed nationally. 
This is a 25% increase from five years ago (FY 2003), and a 75% 
increase from just ten years ago (FY 1998), when HUD and FHAP agencies 
received just 5,819 housing discrimination complaints.
    It is important to note that HUD and the FHAP agencies also receive 
several thousand complaints about other ``unfair'' housing practices 
each year that do not constitute a jurisdictional complaint under the 
Fair Housing Act. These could be complaints of unfair eviction, poor 
maintenance, or other disputes, where the individual does not allege 
discrimination based on race, color, religion, national origin, sex, 
disability, or familial status. The agencies also receive complaints 
alleging discrimination because of age, marital status, source of 
income, or sexual orientation. The Fair Housing Act, however, does not 
authorize HUD to accept complaints on these bases nor can the 
Department reimburse FHAP agencies for their investigation of these 
complaints. Therefore, when HUD reports in FY 2007 that HUD and FHAP 
agencies received 10,150 complaints, it is counting only those 
complaints determined to be jurisdictional under the Fair Housing Act.
    FHAP agencies, to be certified as a ``substantially-equivalent 
agency,'' must attempt to resolve all complaints informally prior to 
issuing a determination on the merits. Congress included this 
conciliation requirement in the federal Fair Housing Act in order to 
expeditiously resolve complaints of discrimination and promptly recover 
for victims of discrimination the housing they sought and other 
equitable relief for the individual and the public interest. Together, 
the Department and its state and local partners successfully 
conciliated or reached informal resolutions in more than 3,100 cases, 
or in 30% of cases, in FY2007. Collectively, the agencies obtained over 
$4.76 million in monetary relief through these resolutions. This amount 
is in addition to other relief complainants may have obtained, such as 
housing units they desired, accessible parking spaces sought, fair 
rental price or fair interest rates on loans, or retrofits to make a 
property accessible to persons with disabilities. Conciliation 
agreements also include public interest relief, such as changes in the 
housing provider's policies or practices, fair housing training, or 
relief funds for other victims of discrimination.
    The Fair Housing Act and substantially-equivalent laws require the 
agencies to attempt to resolve every case through conciliation, 
regardless of the evidence against the respondent. Even if a housing 
provider has an explicitly discriminatory policy on its books, which 
would result in an almost-certain charge against the housing provider, 
the Department must bring the parties together for conciliation before 
issuing a charge. In these cases, the housing provider, given the 
weight of the evidence, more often than not, chooses to conciliate the 
case. In executing any conciliation agreement, the Department ensures 
the agreement ameliorates the wrong done to the victim, and that it 
provides relief for public interest, which includes the elimination of 
any discriminatory policies and practices and monitoring. Many cases 
that would lead to charges conciliate instead because the parties 
decide that conciliation best meets their needs in the given case.
    Let me share a few examples of cases which may have resulted in 
charges but where the parties instead negotiated conciliation 
agreements providing significant relief for the complainants.
    On April 15, 2008, the Department successfully conciliated a 
complaint on behalf of the Sanchez family, a couple with an autistic 
child, who lived in an apartment complex outside Portland, Oregon. Two 
years after Mr. and Mrs. Sanchez moved into the Masters Apartments in 
Aloha, Oregon, Mrs. Sanchez gave birth to a baby boy. At three years 
old, the child was diagnosed with autism and, because of his condition, 
he caused some noise disturbance to the downstairs tenants. The Sanchez 
family asked the apartment management company to move them to a first-
floor unit as an accommodation for their son's disability so they would 
not disturb any neighbors. The management company refused to move them 
and also refused to extend their lease when it came up for renewal. The 
Department conciliated this case, obtaining $40,000 in relief for the 
Sanchez family plus an additional $10,000 donation to charitable 
organizations.
    Another example of the notable relief HUD obtains through its 
conciliation agreements are the cases the Department conciliated in 
December 2007, on behalf of seven families living at Ridge Crest 
Apartments in St. Louis, Missouri. The families alleged that the 
property's rules, which included parental supervision of children under 
18 whenever they went outdoors (even to go between buildings), 
discriminated against families with children. The investigation found 
that many of the families and children lived in fear of the management 
company, which closely monitored and reported on their children's 
activities. HUD's conciliation agreement provided: $83,000 in relief 
for the complainants; $15,000 for a victims'' fund; $72,000 in funding 
for an after school program for two years; and removal of rules 
pertaining specifically to children.
    Conciliation agreements meet the needs of the complainants and the 
public interest. When complainants are dissatisfied with the relief 
offered by housing providers, they may reject it and seek 
determinations on the merits from the agency. If complainants are 
satisfied with conciliation proposals, but the Department, or the state 
or local agency, believes the relief proffered does not match what 
complainants or the agency can obtain in an adjudicative forum, the 
Department educates the complainants regarding the existing case law 
and the relief obtained in comparable cases. The complainants may, 
under those circumstances, decide not to settle the case but pursue the 
case before an Administrative Law Judge. If, however, complainants 
insist on accepting settlement proposals that the agency does not 
believe satisfies the public interest, the agencies will allow the 
parties to settle privately and open Secretary-initiated complaints.
    The Department's case against Summer Place in Las Vegas, Nevada, is 
one example of a complaint filed by an individual that the Department 
expanded into a Secretary-initiated complaint. In November 2006, the 
Department received a complaint from a single mother living in Summer 
Place Apartments in Las Vegas, NV, who had just obtained custody of her 
daughter. She alleged that less than a month after her daughter came to 
live with her, the apartment manager told her to find a new place to 
live, because the management company did not allow children to live at 
the property. HUD's investigation found that the management company did 
refuse to rent to families with children, and encouraged other tenants 
to leave when they became pregnant or obtained custody of their 
children. The complainant and the management company wished to settle 
the case. The Department, however, had to address the broader public 
interest and filed a Secretary-initiated complaint against the housing 
provider to obtain relief for others who were discriminated against. 
The Department identified additional victims of the ``no children'' 
policy. The complainant and the management company wished to conciliate 
rather than await a determination on the merits. The Department 
successfully negotiated a settlement that provided $35,000 in relief to 
the complainant. The Department obtained $10,500 in relief for the 
other victims identified during the investigation, and $29,500 for an 
escrow fund to compensate other victims of the discriminatory policy 
who may be identified after the Respondents placed notices in local 
newspapers.
    The Department and FHAP agencies thoroughly investigate all 
complaints, and reached determinations on the merits in about 54% of 
the cases completed in FY 2007 (The agencies dismissed 16% of the total 
cases, where circumstances prevented the agency from proceeding. Such 
``administrative closures'' include cases where some investigation 
determined the agency lacked jurisdiction over the alleged violation, 
and cases where the complainant party disappeared, withdrew the 
complaint, or refused to cooperate with the investigation). If the 
investigative agency finds no reasonable cause to believe that a 
housing provider or other entity has violated the Fair Housing Act, it 
will issue a finding of ``no-cause'' and close the investigation. The 
complainant retains the right to pursue the matter through private 
litigation. The statute of limitations to file in court is tolled while 
the matter is pending with the agency. If the agency concludes that 
discrimination has occurred, the agency issues a ``determination of 
reasonable cause.'' In complaints filed with HUD, at the same time the 
Department issues the determination, it also files a charge of 
discrimination with a HUD Administrative Law Judge. The Department 
seeks through its charges to recover damages for the individual, civil 
penalties, and other relief for the public interest. As stated earlier, 
the parties may also elect at this stage to have the matter heard in 
federal court, where the Department of Justice files suit on behalf of 
the government and may recover damages for the individual and obtain 
injunctive relief.
    Together, the Department and FHAP agencies found ``cause'' in 609, 
or 6%, of the cases the agencies investigated in FY 2007. As a result 
of HUD charges this past year: six female tenants of a Missouri 
apartment complex received a $165,000 settlement for the sexual 
harassment they endured from the owner of the complex; an African-
American woman who was physically barred from entering an apartment she 
had contracted to rent, and the woman who tried to rent her the unit 
over the owner's wishes, received a $74,000 award from an 
Administrative Law Judge (the judge also imposed a $22,000 civil 
penalty); a mentally-disabled man who was wrongly evicted from his home 
while he was in a coma received, along with his family, $45,000 in a 
federal consent decree; seven Hispanic families whom owners of an 
apartment building in Orange Grove, California, evicted so they could 
move in Vietnamese persons, received $174,000 in a consent order; an 
African-American school principal denied the opportunity to view a home 
for sale because of the color of her skin received $30,000 and her 
agent $5,000, in a federal consent order; and a mother, whose 
daughter's epileptic seizures worsened after the landlord refused to 
allow her assistance animal on the property, received $102,000 plus 
attorney's fees in a Department of Justice consent order.
    In addition, whenever the Department learns of discrimination from 
an independent source, the Department informs victims of discrimination 
of their rights and takes a complaint. For example, the Department 
advised an African-American woman of her right to file a complaint when 
it learned from a television report about the discrimination she 
experienced. The woman attempted to rent an apartment at Fountainview 
Apartments near Orlando, Florida. At the rental office, she saw a map 
on the wall indicating which units at the complex were currently 
available. The manager, however, told her that nothing was available 
and that nothing would be available anytime soon. Suspecting she had 
been discriminated against, the woman, who had seen HUD's public 
service announcements, asked another woman, who did not have a 
racially-identifiable voice, to call the property. That person learned 
that units were, in fact, available and she was invited to come view 
the units. The woman reported this experience to a local news station, 
who conducted its own testing, which showed clear evidence of 
discrimination. Upon watching the televised report of the woman's 
experience, the Department contacted her on February 8, 2008, to take 
her complaint. The Department charged this case on April 28, 2008. The 
parties subsequently elected to move to the case to federal court, and 
the Department of Justice filed suit on behalf of the government in May 
2008.
    Moreover, whenever an individual files a complaint that suggests an 
apartment complex owner/manager or other entity may be engaging in a 
systemic practice of discrimination, the Department works with the 
additional victims to assist them in filing complaints and securing 
compensation for these individuals, as well. For example, in September 
2006, residents of an apartment building in Virginia Beach, Virginia, 
filed complaints with the Department alleging that Mr. Henry, the owner 
of their apartment building discriminated against them because they 
were African American. In the course of HUD's investigation, the 
Department discovered that Mr. Henry subjected African-American tenants 
to rules and restrictions that he did not place on white tenants. The 
African-American tenants, for example, had to abide by ``quiet hours'' 
and restrictions placed on their guests. The Department sought and 
received complaints from four additional tenants who had faced 
discrimination and charged the case in April 2007. Just last month, the 
Department of Justice entered into a consent decree that requires Mr. 
Henry to pay $361,000, which includes: $84,000 to two of the tenants; 
$235,000 for a fund to compensate other victims; and a civil penalty of 
$42,000. Mr. Henry paid additional compensation to five other 
complainants in private settlements.
    From charges, conciliations, and settlements combined, victims of 
discrimination receive positive outcomes in more than 36% of complaints 
investigated by the Department and its state and local partners in FY 
2007.
    While investigations, settlements, and adjudications of individual 
complaints comprise the principal means by which the Department 
enforces the Fair Housing Act, the Department regularly exercises its 
authority to bring its own action against a person or entity that has 
violated the Fair Housing Act, where no individual has filed a 
complaint. In FY 2007 alone, the Department initiated 16 Secretary-
initiated complaints or investigations. These included investigations 
of: a large apartment management company in New York engaged in alleged 
racial discrimination; several large apartment complexes in 
Pennsylvania, Nevada, and Colorado, who allegedly refused to rent to 
families with children, subprime lenders who charged African Americans 
and Hispanics higher rates and fees, on average, than white borrowers, 
and real estate associations that limited benefits of association to 
others of the same religion. In FY 2008, the Department has filed 
additional Secretary-initiated complaints, including a complaint a 
large Florida housing provider for refusing to rent to families with 
children and four additional investigations into the practices of 
lenders for possible discrimination on the basis of race and national 
origin.
    The Department's Secretary-initiated investigations of possible 
discrimination in the lending market is particularly critical as 
applicants for loans often do not understand the reason for their 
denial nor the complicated metrics that go into pricing their loan. 
Moreover, borrowers have no information regarding what others pay for 
the same mortgage product, so they do not know if they have received a 
fair price. HUD can examine the larger lending and pricing patterns of 
the lender and uncover discrimination an individual cannot.
    Each year since 2005, the Federal Reserve Board (FRB) has provided 
the Department with a list of independent mortgage companies that the 
FRB had identified as having disparities in the incidence, denial rate, 
or rate spread of high-cost loans. Each year the Department analyzes 
the loan data for each lender flagged on that list, reviews the 
complaint data on those lenders and selects targets for investigation. 
Since the lists were first published in 2005, the Department has 
conducted econometric analyses on more than 350 lenders to select 
targets for investigation. To date, the Department has initiated six 
investigations into independent mortgage companies because of 
disparities in their HMDA data.
    To further ensure the best possible handling of all fair housing 
complaints by the Department, FHEO has made structural changes to the 
organization. In FY2005, FHEO created the Office of Systemic 
Investigations, which oversees all of the Department's Secretary-
initiated investigations and complaints that involve systemic 
discrimination. In FY2007, the Department further enhanced its 
enforcement by adding a Lending Division within the Office of Systemic 
Investigations. The Division initiates investigations when lending 
patterns or other information suggests discrimination by a lender, but 
no individual has come forward to file a complaint. In addition, the 
Department has reassigned to the Division HUD's fair lending oversight 
of Fannie Mae and Freddie Mac to ensure their underwriting policies and 
practices comply with fair lending laws. The Lending Division is 
currently conducting six nationwide Secretary-initiated investigations 
of independent mortgage companies for possible discrimination on based 
on race or national origin in the making and pricing of loans.
    Because individual complaints are the primary enforcement mechanism 
under the Fair Housing Act, the Department has increased efforts in 
recent years to educate the public and housing providers on their 
rights and responsibilities under the Act. This has included national 
public-service campaigns over the last several years, funded through 
the Fair Housing Initiatives Program (FHIP) and other contracts. Fair 
housing organizations have used the radio, television, and print 
materials created by these campaigns to promote fair housing and 
educate people about housing discrimination. The Ad Council estimates 
that a quarter of television viewers in 2003 viewed Accents, an award-
winning public-service announcement. This included the complainant in 
Orlando, Florida, who used her knowledge of this PSA to test 
Fountainview Apartments for discrimination. More recently, in FY 2007, 
the Department purchased advertisements on movie screens across the 
nation to inform the public about how to report housing discrimination. 
More than 1.5 million people saw these advertisements over the two 
weeks that they were in theaters.
    In addition, the Department distributes the Education and Outreach 
funding to individual organizations under FHIP. This funds education 
and outreach programs to inform the public about their rights and 
responsibilities under the Fair Housing Act. This includes 
presentations before community groups, participation in homeownership 
fairs, assistance with housing counseling and development of education 
and outreach materials targeted to the local audience. In FY2007, the 
Department provided funding to 33 local fair housing groups in 32 
states to conduct education and outreach in their respective areas of 
the country. Through fair housing presentations alone, these groups 
will educate more than 250,000 people about their fair housing rights 
this year. Additionally, all organizations who receive private 
enforcement grants under FHIP devote a percentage of their budget to 
education and outreach on the services they provide in the community.
    Also, to encourage people to report the discrimination they 
encounter, HUD has widely publicized outcomes in housing discrimination 
cases. This helps the public recognize that taking action is likely to 
yield positive results. In February 2007, the CNN program Open House 
aired a segment on housing discrimination. The segment featured an 
interview with an African American woman who filed a complaint with HUD 
alleging that Fifth Third Bank denied her application for mortgage loan 
because of her race. HUD negotiated a $125,000 settlement in this case. 
Parade magazine, in an April 15, 2007 profile of the Department's fair 
housing mission, advised readers that housing discrimination is illegal 
and provided several examples of unlawful discrimination, such as 
charging higher rent to tenants based on race or religion or refusing 
to accept families with children. Parade has a circulation of more than 
35.5 million. In addition, on a monthly basis, from June 2006 through 
June 2007, Essence Magazine featured an article on 12 steps of the home 
buying process. Assistant Secretary Kim Kendrick served as one of 12 
members of an advisory board throughout the 12 steps and provided fair 
housing information for three of the 12 articles.
    While more than 10,000 people each year avail themselves of the 
investigation and complaint process, HUD understands that some persons 
may not want to file a federal complaint. Among other reasons, persons 
may not want to invest the time and effort into filing a complaint and 
going through an investigation. In order to serve such persons, the 
Department funds dozens of private fair housing groups though Fair 
Housing Initiatives Program (FHIP). These groups provide immediate 
assistance to persons who have experienced discrimination. Private 
enforcement groups are able to provide on-the-spot assistance without 
going through the administrative and legal requirements involved in a 
formal complaint and provide the public with a useful alternative to 
the formal complaint process available through HUD and state and local 
fair housing agencies.
    Finally, the funds the Department administers under FHIP support 
organizations that provide first-line assistance in many communities. 
For example, HOPE Fair Housing Center, a FHIP grantee, discovered that 
a private property management company in DuPage, Illinois, used a 
rental application that required potential renters to disclose their 
race, ethnicity and any disability. In June 2007, as part of the 
conciliation agreement in the case the organization filed, the 
management company agreed to pay HOPE Fair Housing $30,000, undergo 
fair housing training, and remove the offending questions from its 
application. In another case, an individual with HIV, who was denied 
housing, turned to Project Sentinel for assistance. Project Sentinel, a 
FHIP recipient in California, conducted testing that substantiated the 
allegation that the individual was denied housing because of his HIV 
status. The individual filed a complaint with HUD, and based on the 
Department's investigation and the testing by Project Sentinel, the 
Department charged that case in September 2007.
    In order to encourage and compensate fair housing group for their 
work on large resource intensive complaints HUD added multi-year grants 
to FHIP in 2005. This funding accounted for 73% of FHIP's $13.9 million 
enforcement budget in FY 2007, providing the top-performing groups with 
three years of funding. Many fair housing organizations, including the 
National Fair Housing Alliance, advocated for this funding, arguing 
that it would promote more comprehensive testing and better strategic 
planning by the organizations. Any organization that receives a 
performance-based grant must have exceptional experience and excellent 
performance reviews. The multiple-year funding encourages these groups 
to take on larger cases of housing discrimination and allows for better 
strategic planning by the organizations. Both of the organizations 
discussed above were recipients of performance-based funding under the 
FY2007 grant cycle.
    HUD's other civil rights responsibilities include the oversight of 
HUD-funded recipients to ensure that they are providing housing and 
housing-related services in a nondiscriminatory basis and that they are 
affirmatively further fair housing. HUD reviews its programs by 
investigating complaints alleging discrimination by HUD-funded 
recipients and conducting compliance review of recipients. HUD uses 
several methods to provide remedies for public interest: voluntary 
compliance agreements, corrective action orders and debarments. For 
example, after HUD found the Atlanta Housing Authority in noncompliance 
with Section 504 of the Rehabilitation Act of 1973, HUD entered into a 
voluntary compliance agreement with the housing authority in which it 
agreed to make changes to its housing and other programs to improve 
accessibility for persons with disabilities. Until the City of 
Gainesville, Florida Housing Authority agreed to enter into a voluntary 
compliance agreement, HUD issued a Corrective Action Order to the 
housing authority. The corrective action order restricted the housing 
authority's access to all Capital Fund Program funds not already 
obligated or under contract to expenditures necessary to cure the civil 
rights noncompliance and to remedy emergency situations. In one 
instance, HUD debarred an Omaha Section 8 landlord for sexual 
harassment of women tenants. This landlord is no longer a Section 8 
participant.
    When HUD has found discrimination in Fair Housing Act cases, HUD 
has not hesitated to eliminate Section 8 landlords from HUD programs. 
On June 11, 2007, HUD debarred John Koch, the manager of several 
Section 8 properties in Omaha, Nebraska, from participation in HUD 
programs after a jury trial in the U.S. District Court for the District 
of Nebraska found that Koch had engaged in unwanted verbal and physical 
sexual advances toward prospective and current female tenants. Further, 
on September 13, 2007, HUD debarred Bobby and Jewel Veal of Kansas 
City, Missouri, from participation in federal programs after the U.S. 
District Court for the Western District of Missouri found that Mr. 
Veal, a Section 8 landlord, engaged in a pattern of housing 
discrimination on the basis of sex through unsolicited sexual advances 
toward female tenants, including rape and fondling. The court found 
that Mr. Veal entered the homes of these women without notice, 
destroying their sense of security, and that Mrs. Veal had personal 
knowledge of his activities and failed to take steps to prevent them. 
The Department debarred the Veals'' participation in HUD programs for 
five years.
    The work of each component of HUD's fair housing program is 
necessary to fair housing enforcement in the United States. The 
Department's enforcement system allows an individual to file a formal 
fair housing complaint, which is investigated by a federal agency. 
Through the Fair Housing Assistance Program, an individual has the 
option of similar services but on a state or local level. Finally, the 
Fair Housing Initiatives Program provides the public with quick 
resolution to housing discrimination, without the filing of a formal 
complaint.
    But more important than any individual program is the right of 
every person in the United States to rent an apartment, to buy a home, 
to obtain a mortgage, to live in their home without prejudice because 
of their race, color, religion, national origin, sex, familial status 
or disability. This was the goal of Dr. Martin Luther King, Jr. This is 
the goal this country reached for when this country passed the Fair 
Housing Act in 1968, and amended it to protect more people 20 years 
later. This is the goal that this Department rededicates itself to 
every fair housing month. We are committed to ensuring that each 
housing transaction in this country is fair and without discrimination. 
And when a housing transaction is discriminatory, when someone violates 
the Fair Housing Act, there is no greater priority for this office than 
assisting the man or woman whose rights have been violated.
    Thank you for this opportunity to appear before the subcommittee 
today.

    Mr. Nadler. The lady's time has expired.
    I thank the witnesses.
    And I will recognize myself for 5 minutes to begin the 
questioning.
    Ms. Liu, 2 years ago, the Department of Justice launched 
Operation Home Sweet Home, to which you have referred, to 
combat more hidden forms of discrimination.
    In the last fiscal year, the department conducted 20 
percent more housing discrimination investigations. How many 
pattern-or-practice cases were filed as a result of these 
investigations?
    Ms. Liu. Thank you so much for that question, Mr. Chairman.
    In February of 2006, the Attorney General announced 
Operation Home Sweet Home to beef up our fair housing testing 
program. And in fiscal year 2007, as you mentioned, we had an 
extremely successful year, with over 500 paired tests. That was 
20 percent more than had been conducted in any prior year.
    I can tell you that, since September of 2007, we have filed 
four cases based on testing evidence.
    Mr. Nadler. You have filed four cases in the last, what, 6 
months, 7 months?
    Ms. Liu. Since September----
    Mr. Nadler. Nine months. Four in the country? How many 
pattern-or-practice investigations have been filed since 2006?
    Ms. Liu. Mr. Chairman, I am not sure of the number off the 
top of my head.
    Mr. Nadler. Roughly, roughly.
    Ms. Liu. I am not sure of the number----
    Mr. Nadler. About how many have you been filing of pattern-
or-practice investigations in recent years on an annual basis?
    Ms. Liu. Based on testing evidence?
    Mr. Nadler. Based on testing.
    Ms. Liu. Over the last few years, the number of pattern-or-
practice cases has averaged about 21 per year, I believe. But I 
can get you the more specific numbers.
    Mr. Nadler. Well, 21 sounds pretty specific. Roughly 20, 25 
pattern-or-practice cases a year.
    Three-and-a-half million--I think it says 3.7 million 
housing discrimination cases, and we are filing 21 or 25 
pattern-or-practice cases a year? That is one out of every 
200,000 or something like that. Does this sound a little weak, 
in terms of real enforcement?
    Ms. Liu. Mr. Chairman, as I think I said in my written 
statement, the Civil Rights Division's jurisdiction extends to 
pattern-or-practice cases as well as cases in which HUD 
investigates, issues a charge, and one of the parties elects to 
proceed in Federal court.
    The number, 3.5 million or 3.7 million, as I understand it, 
includes an estimated number of complaints of discrimination. 
So I just want to emphasize that our jurisdiction is to pursue 
the large-scale pattern-or-practices cases as well as charges 
that HUD has issued and in which one of the parties has elected 
to proceed in Federal court. So we deal with a much smaller 
subset than the 3.7 million number that has been referenced.
    Mr. Nadler. And how many land-use and zoning cases has the 
department brought based on race and national origin for the 
last couple of years?
    Ms. Liu. In this Administration, Mr. Chairman, we have 
brought a number of land-use and zoning cases based on race and 
national origin. We have also been very successful----
    Mr. Nadler. Wait a minute. I know you have brought ``a 
number.'' Can you be a little more specific than that?
    Ms. Liu. Well, over the past 7 years, I know of at least 
four cases against municipalities in zoning and ordinance cases 
based on race and national discrimination.
    Mr. Nadler. Four cases in 7 years?
    Ms. Liu. At least. And I am certainly happy to get you more 
details on the numbers.
    Mr. Nadler. Again, do you think that that is a fair 
representation, a vigorous policy against land-use and zoning 
discrimination?
    Ms. Liu. I do. I think we have been very successful in 
bringing those cases. And I----
    Mr. Nadler. No, wait a minute. You may have been very 
successful in those four cases. But do you think four cases 
over 7 years is a vigorous attempt to enforce the laws, 
including the laws against land-use and zoning discrimination?
    Ms. Liu. I do, because those are at least four cases in the 
zoning context against municipalities for alleged race and 
national origin discrimination. We also do many, many other 
kinds of cases. We had a very recent successful case against 
General Properties that resulted in $725,000 in relief----
    Mr. Nadler. Okay. I am sorry, I am going to have to rush to 
one other thing.
    Ms. Kendrick, approximately 3.7 million fair housing 
complaints occur annually, but in 2006 HUD processed 11,000 
complaints. That is less than half of 1 percent of the 
estimated fair housing violations that occur in the United 
States.
    Given the large number of violations, can you explain why 
so few complaints are processed by HUD? Why is it 11,000 and 
not 110,000, for example?
    Ms. Kendrick. Thank you for that question, sir.
    We actively seek out complaints. We don't just sit in our 
seats and wait for complaints to come to us. The 10,000 
complaints that you are talking about are complaints that were 
brought to us, but we don't sit in our seats and wait. What we 
have been doing for the last 3 years is we have actively been 
using the authority that we have to initiate----
    Mr. Nadler. I am sorry. Those 11,000 are complaints brought 
to you?
    Ms. Kendrick. Brought to us by individuals.
    Mr. Nadler. They do not count actions initiated by you?
    Ms. Kendrick. Exactly.
    Mr. Nadler. And could you give us an estimate of how many 
that might be?
    Ms. Kendrick. In the last 3 years, we have brought 20 
secretary-initiated complaints based on cases that we have 
observed in the press, actions that we think need to be taken 
against a discriminatory lender----
    Mr. Nadler. So roughly 11,000 complaints brought to you and 
20 initiated by you.
    Ms. Kendrick. But the 20, you have to accept, sir, 
represents more than just one case. For example, if we go 
against an apartment owner who is renting out 353 units, when 
we bring a secretary-initiated case against a landlord that has 
that many units, that is an additional 357 complainants that 
would have come to us but we went to them.
    Mr. Nadler. Thank you.
    My time has expired. I will now yield 5 minutes to the 
Ranking minority Member, Mr. Trent Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And just for the record, Mr. Chairman, I would like to 
address the comments of one of the minority Members who 
criticized the citing of the National Review magazine.
    But let me first say the thing on which I agree with the 
gentleman very deeply: that, indeed, with low-income families, 
one of the most important ways that they can stabilize their 
families economically is homeownership. And it is something 
that I have supported all of my public life, both through 
private initiative and public initiative.
    But I believe it goes even beyond the economics. I think 
there is strong evidence that says that if families own a home, 
that they are also more stable structurally as a family. And I 
believe it is vitally important. It is something I hold as a 
very deep conviction, and that any discrimination against 
anyone on these bases should be prosecuted to the fullest 
extent of the law.
    I think the point of The New York Times discovery--that 
when minorities disproportionately take out the riskiest 
mortgage, that they also have disproportionate foreclosures as 
well--is something that we should face as policymakers.
    Policymakers should do everything that they can to prevent 
discrimination, but if they force banks into making loans that 
are actuarily not sustainable, then we don't do the people that 
we are trying to help any good. We end up ruining the customer. 
And that is one of the things that a bank is not supposed to 
do. And I think that sometimes policymakers need to take 
responsibility for their actions in that regard.
    And I just wanted to make that very clear, that every 
family I think is improved by homeownership, but I especially 
think the pressures of low-incomes families are ameliorated to 
a great degree by homeownership. And it is something that I 
have supported privately and publicly all of my adult life.
    With that said, Ms. Liu, I wanted to ask you, what 
proactive measures is the Department of Justice taking to 
protect the rights of all Americans to obtain housing without 
illegal discrimination?
    Ms. Liu. Congressman Franks, thank you for that question.
    Operation Home Sweet Home lies at the very center of our 
effort to act proactively in seeking out discrimination. This 
is a fantastic initiative that the Attorney General announced 
in February of 2006. And what we do is we send out testers, 
both testers from a protected class and testers who are not 
from a protected class, all over the country to determine 
whether people are being treated differently on the basis of 
race, national origin, familial status, sex, et cetera.
    And we have been very successful. In fiscal year 2007, we 
conducted more than 500 paired tests all over the country. That 
was a record number for us. In fact----
    Mr. Franks. And how does that paired test work? Explain 
that for the less educated among us.
    Ms. Liu. Sure. We will identify, for example, an apartment 
complex that we would like to test. And we will quite often 
make a phone call to find out whether or not they have 
vacancies.
    We will send in, for example, an African-American tester. 
They will express that they are looking, for example, for a 
one-bedroom apartment. They will give a little background about 
themselves and why they want the apartment and so on. And we 
will track how they are treated--for example, whether they are 
told that an apartment is available, whether the property 
manager is polite to them, offers to show them apartments and 
so forth.
    Very shortly afterwards, we may send in a White tester who 
has the same profile, who is looking for the same kind of 
apartment, and then we will track how that person is treated. 
And based on this evidence, we are able to uncover hidden forms 
of discrimination.
    And, as I mentioned a little bit earlier, we have filed a 
number of cases since last September, including a race 
discrimination case in Michigan, as well as the first-ever case 
alleging discrimination against Asian-Americans based on 
testing evidence, and that was in Lowell, Massachusetts. We 
settled that a little bit earlier this year. So we are very 
proud of that.
    In addition, we do a substantial amount of outreach. One 
example is we do do outreach to the construction community. We 
do multi-family housing access forums twice a year all over the 
country, where we reach out to developers and architects and 
emphasize how important it is to everyone in the community that 
housing be built so that it is accessible to persons with 
disabilities. And we try to essentially stop the problems 
before they occur by educating people.
    Mr. Franks. Ms. Liu, this is more of a subjective question, 
but do you, in your capacity, sense any sense on the part of 
the Administration to de-emphasize the effort to prevent 
housing discrimination in this country? Do you sense that there 
is any environment in the Administration that has reduced your 
focus in that regard, as opposed to previous Administrations?
    Ms. Liu. Absolutely not. This Administration, this 
Department of Justice, is completely and totally committed to 
fair housing. And I think we have a very good record on that.
    I should also add that we have the good fortune of working 
with some very talented and extremely dedicated career 
professionals in the Housing and Civil Enforcement Section. And 
I couldn't be prouder to work with them.
    Mr. Franks. Thank you, Mr. Chairman. My time is up, but 
where did the yellow light go? Okay. It goes to red from green.
    Mr. Nadler. It is probably still somewhere in the vicinity.
    I now recognize for 5 minutes the distinguished Chairman of 
the full Committee.
    Mr. Conyers. Thank you. I would be happy to give the 
gentleman a minute if he needs some more time.
    Mr. Franks. No, forgive me, I wasn't asking for more time. 
I just wondered where the yellow light went. There was no 
yellow light that time.
    Mr. Conyers. All right.
    You know, Ms. Liu, you are the most positive person I have 
heard all day about this horrendous problem. And your courtesy 
and style is very charming. I am just caught up with how 
wonderful this is and the progress we are making.
    Now, tell me, where did you ever practice civil rights law?
    Ms. Liu. Sir, I began my career at Jenner & Block in both 
Chicago and here in D.C., a very----
    Mr. Conyers. Right.
    Ms. Liu [continuing]. Fine firm. And I had the opportunity 
to do some housing enforcement work there. You may recall that 
there was a very large case against the City of Baltimore's 
housing authority a few years ago involving racial segregation, 
and I was lucky enough to be a part of that case.
    Mr. Conyers. Okay. Now, who were you representing in that 
case?
    Ms. Liu. We were on the plaintiff's side, sir.
    Mr. Conyers. The plaintiff. And who was the plaintiff?
    Ms. Liu. We worked with--and I wish I could--unfortunately, 
the name of the named plaintiff is escaping my memory right 
now. But Jenner & Block worked with one of the fair housing 
groups in Baltimore to bring suit, and I believe it was not 
only against the housing authority----
    Mr. Conyers. Okay, all right. Thank you.
    Ms. Liu [continuing]. But HUD, as well.
    Mr. Conyers. All right. We will find out afterwards.
    Now, how long have you been in your position?
    Ms. Liu. In my current position----
    Mr. Conyers. Yes.
    Ms. Liu [continuing]. Since December of 2007.
    Mr. Conyers. So that is less than a year.
    Ms. Liu. That is correct.
    Mr. Conyers. Okay.
    What we have here is a tremendous problem. Do you know how 
long it will take us to ever get this problem of 3.7 million 
fair housing violations dealt with at the rate that we are 
going?
    Ms. Liu. Sir, I wish I could tell you how long it would 
take to eradicate housing discrimination in this country. I 
think----
    Mr. Conyers. I didn't ask you all that. The fact of the 
matter is that we will never get it accomplished. So I don't 
need you to admit that you can't project it. I can't either.
    The point I am trying to make is that, at the rate we are 
going, I can't see how you could possibly positively come here 
to trumpet the accomplishments of either of these departments 
when the situation is horrendous and getting worse.
    Now, let me turn to Attorney Kendrick.
    Here we are getting so few cases. You are the ones with 
subpoena power. They don't even have subpoena power and don't 
get the cases unless you refer to them in the housing area, 
right?
    Ms. Kendrick. That is correct.
    Mr. Conyers. So if we have millions of complaints, and we 
are talking about 31 cases brought and 50 cases brought and 20 
cases brought a year, what is the problem? That is why we are 
holding the hearing, ma'am.
    Ms. Kendrick. I think the problem, sir, is that we have to 
get out more to the people who have complaints to make sure 
they understand----
    Mr. Conyers. You mean you are needing millions more than 
the ones you are already getting.
    Ms. Kendrick. That is correct, sir, because until we are 
able to make sure that everybody understands what their rights 
are----
    Mr. Conyers. But you are not processing--you are processing 
a fraction of the ones in the pile that you are getting. 
Getting more complaints isn't going to give----
    Ms. Kendrick. No, sir, that is not--sir, I would have to 
beg to disagree, because the cases that we are getting we are 
processing. We are conciliating those cases. In 40 percent of 
the cases that we are processing, we are conciliating and 
getting----
    Mr. Conyers. All right.
    Ms. Kendrick [continuing]. Substantial results for those--
--
    Mr. Conyers. I ask for a minute more.
    Mr. Nadler. Without objection.
    Mr. Conyers. Well, I won't ask you if you are proud of your 
record. You can't come before a Committee like this and say you 
are not.
    But we have got a humongous problem here. And both of you 
are telling us about a case here and a case there and ``they 
had 500 tenants, and so this is a big case.'' This is a mess 
that we will never get out of.
    And, of course, you are new on the job.
    How long have you been on your job?
    Ms. Kendrick. It will be 3 years in October, sir.
    Mr. Conyers. Well, then you ought to have some sense of the 
frustration that some of us are feeling here today. All this 
back-and-forth, and we have got a problem that will never end 
the ghettos in America. We have been talking about this since I 
came to Congress and probably well before. And these kinds of 
reports that you are giving us, your successors 20 years from 
now will be doing the same thing and telling us the same thing.
    Thank you.
    Mr. Nadler. The gentleman's time has expired. I now 
recognize for 5 minutes the gentleman from Alabama.
    Mr. Davis. Thank you, Mr. Chairman.
    Ms. Liu, let me begin with you. And let me, frankly, move a 
little bit beyond what you have talked about today in your 
testimony. You focused primarily on, frankly, I hate to use the 
term ``garden-variety'' fair housing cases or ``garden-
variety'' civil rights cases, but the standard red-lining, the 
standard obvious, overt kinds of discrimination that we have 
seen in the housing industry is what you talked about. I want 
to move beyond that to talk a little bit about, frankly, one of 
the major factors that is pulling our economy into a recession 
right now, which is the explosion of the subprime market and 
all of the issues around that market that are now affecting the 
economy.
    And I want to read you one statistic from a notably non-
Democratic, non-liberal source called The Wall Street Journal. 
The Wall Street Journal says that, in 2006, 61 percent of 
subprime borrowers qualified for a better loan based on their 
credit scores. And I have no idea what number of those were 
Black, what number of those were White or Hispanic or Asian. 
But a number of people have, frankly, raised the question of 
why the Department of Justice has not been more aggressively 
focused on the whole subprime market.
    I want to read you some other quotes that I thought were 
interesting. Perhaps Mr. Franks might even find them 
interesting.
    This is a story that was written in The New York Times last 
week, June 6, and it outlines in a fairly succinct nature some 
of the issues around the subprime market's collapse.
    ``Mortgage brokers were not told the true terms of their 
loans, homes were overvalued, and investment firms put together 
mortgage-backed securities packages in ways that inflated their 
true value.''
    Your boss, the Attorney General, was asked to respond to 
that description of the subprime market, and he said, ``That 
has happened over and over again. Someone that I met with 
characterized it as `white-collar street crime.' ''
    So perhaps Mr. Franks might find it interesting that 
someone of his party in this Administration that I think he 
supports on a fairly regular basis doesn't view this as a 
public policy matter in its entirety, but the Attorney General 
of the United States describes the proliferation of problems 
around subprime as ``white-collar street crime.''
    Would you agree with the Attorney General, Ms. Liu?
    Ms. Liu. Congressman Davis, let me answer the question in 
two parts, if I could.
    Mr. Davis. As long as one of them actually answers the 
question.
    Ms. Liu. I will do my best.
    The first part of the questions is that the Civil Rights 
Division's jurisdiction in the fair lending area stems from the 
Fair Housing Act and the Equal Credit Opportunity Act. And one 
of the things that we have done in the subprime area is that we 
have pursued a number of very large red-lining cases in this 
Administration, notably in the Chicago area, in Detroit----
    Mr. Davis. Now, you are not suggesting the Justice 
Department's jurisdiction is limited to red-lining subprime 
cases. There is no dispute that if there is an obvious instance 
of someone extending subprime to African-Americans in a 
disproportionate manner that you have jurisdiction. Let's not 
waste time arguing about that, given my 5 minutes.
    I am talking about, frankly, the nonracial dimensions 
affecting so many people in this country of all colors. And I 
am asking why the department has not been more aggressive in 
tackling that problem.
    You wouldn't dispute that the Department of Justice would 
have jurisdiction if there was evidence that mortgage-holders 
weren't told the true terms of their loan, that homes were 
deliberately overvalued, and that some investment firms 
deliberately put together securities that were inflated--you 
are not suggesting that any of those things that are proved 
would not be in the jurisdiction of the department, are you?
    Ms. Liu. Those may well fall within the jurisdiction of the 
department, but not necessarily within the Civil Rights 
Division, which is the division that I work for.
    I will say that there are, as far as I know, a number of 
other components of the department that may have jurisdiction 
over those areas. The Criminal Division, for example, I would 
imagine may have jurisdiction to prosecute instances of out-
and-out fraud.
    Mr. Davis. Now, let me stop you at that point. Has the 
chief of the Criminal Division talked with you about the 
feasibility of a combined task force, perhaps, to address these 
problems? Why not take your expertise, as someone who runs the 
housing section, Civil Rights, why not match it up with the 
Criminal Division, which investigates fraud? Has that kind of 
internal conversation happened within the department?
    Ms. Liu. Congressman Davis, we, at the department, have had 
a tradition of not discussing our internal deliberations for a 
variety of reasons, most notably so that we can have candid 
discussions and receive advice from the folks that we work with 
without chilling them.
    Mr. Davis. Well, I am not asking you for any privileged, 
confidential communications. I am not even asking you what the 
results of those communications would be. From my old days of 
practicing law, I always thought even the most ill-conceived 
privileges protected the content of the conversation, not 
whether or not they have happened.
    Have there been conversations with the chief of the 
Criminal Division about a combined, coordinated task force 
effort within the department to address not just the racial 
part of this problem but broader issues?
    Ms. Liu. Sir, I believe the Attorney General made a 
statement about a mortgage fraud task force. And I really don't 
think it is appropriate for me to go beyond what the Attorney 
General has said on the matter.
    Mr. Davis. If I could ask for an additional 15 seconds, 
just to follow up on that.
    Would you have an opinion on that, Ms. Liu? I mean, the 
Attorney General has made a statement that he is not going to 
appoint a task force, as a matter of fact. Does that strike you 
as being an advisable decision?
    There was a task force regarding Enron. Frankly, Enron did 
not cause the kind of ripple effects in this economy that the 
securities crisis and the subprime crisis has caused. This is 
worse than Enron, isn't it? From what you read in the paper, 
isn't this worse than Enron?
    Ms. Liu. I appreciate your question, but I really don't 
think it is appropriate for me to go beyond what the Attorney 
General has said.
    Mr. Davis. All right.
    Well, thank you, Mr. Chairman.
    Mr. Nadler. Thank you.
    The time of the gentleman has expired. I now recognize for 
5 minutes the gentleman from Minnesota.
    Mr. Ellison. Ms. Liu, do Whites and African-Americans and 
Hispanics have subprime loans at the same rate?
    Ms. Liu. Sir, I don't know the statistics, so I am 
unwilling to express a view on those statistics. I have seen 
news reports that indicate that there may be a disparity.
    Mr. Ellison. Yes. So, are you saying you don't want to 
express a view on whether or not there is a disproportionate 
impact of the subprime mortgage crisis on people of color than 
others?
    Ms. Liu. I have seen news reports that seem to suggest that 
there is a disparity.
    Mr. Ellison. Well, you would agree that the subprime 
mortgage crisis is a housing issue, right?
    Ms. Liu. I would agree that, broadly speaking, the subprime 
crisis is a mortgage issue. But----
    Mr. Ellison. Is it an issue that your department has 
focused on, the disproportionate numbers that you have heard 
about in the press of subprime mortgages?
    Ms. Liu. If I could, I would like to highlight some of the 
work that we have done.
    Mr. Ellison. I can read about that.
    I am still stuck on this idea that you don't know whether 
or not there is a disproportionate impact. Why don't you know 
that?
    Ms. Liu. Sir, I can tell you about what I have seen in the 
news reports. I can tell you what reports that I have read.
    Mr. Ellison. Has your department done any focused research 
on this issue?
    Ms. Liu. I don't know the answer to that question, but I am 
happy to go back and get back to you with a response.
    Mr. Ellison. Well, let me ask you this. Let's just assume 
for a minute that there has been a disproportionate--well, Ms. 
Kendrick, can you speak to this issue?
    Ms. Kendrick. Yes, sir. I think that we can--I certainly 
think, from our point of view at HUD, I think we have seen 
studies and we have conducted studies where we have seen that 
African-Americans and Hispanics have received higher rates in 
the subprime market than Whites.
    Mr. Ellison. You know, I want to talk about how we arrived 
there, because I think it is connected to housing 
discrimination.
    Let me ask you this. Do you think that historic housing 
discrimination patterns made African-American and Hispanic 
homebuyers more susceptible to getting into predatory loans?
    Ms. Kendrick. I think the lack of education, in terms of 
lack of history and not being homeowners, not having high rates 
of homeownership, may have contributed to the situation, yes, 
sir.
    Mr. Ellison. Well, what about if you are historically 
barred from the prime market of home mortgages, discriminated 
against in areas of credit, aren't you sort of ripe for 
somebody to come along and say, ``Hey, this is your chance to 
buy a piece of the American dream''?
    Ms. Kendrick. I think that one of the things that we have 
tried to do in this Administration is to make sure that we have 
increased homeownership dollars, increased dollars for 
homeownership counseling to make sure that people understand 
what their responsibilities, what their rights are and 
obligations are when they are purchasing homes. So I think that 
we have done that.
    Mr. Ellison. I am glad you mentioned that.
    Now, let me ask you this. Now, Chairman Conyers, you know--
I assure you, the frustration he expressed is shared by most of 
us on this side of the aisle. I mean, we are not prosecuting 
enough cases of housing discrimination. We are not really 
bringing the cases forward.
    So, in many ways, this problem that I think you are sort of 
agreeing with, the historic housing discrimination patterns, 
has contributed to this susceptibility of African-American and 
Hispanic homebuyers to get into predatory mortgages----
    Ms. Kendrick. I think I said lack of education, sir, just 
so we make sure that--the lack of education or the lack of 
history in homeownership, owning property----
    Mr. Ellison. Okay, you want to go there? What about 
education--so education has been equally available for all 
Americans through the course of our history?
    Ms. Kendrick. That is what I am saying, the lack of 
education in these areas, sir.
    Mr. Ellison. Which is the result of what, ma'am?
    Ms. Kendrick. Not being----
    Mr. Ellison. Segregation, right? I mean, right, Ms. 
Kendrick? Right?
    Ms. Kendrick. The lack of opportunities to secure 
mortgages, the lack of opportunities to own homes----
    Mr. Ellison. Ms. Kendrick, I have only got 5 minutes. That 
is because of discrimination, yes or no?
    Ms. Kendrick. In some cases, yes.
    Mr. Ellison. Okay, let's talk about the ``yes'' part, okay? 
The Justice Department's lack of enforcement of housing 
discrimination cases, their lack of aggressive enforcement has 
helped to contribute to the subprime mortgage crisis, wouldn't 
you agree?
    Ms. Kendrick. I can only speak for the Department of 
Housing and Urban Development and the tactics that we have been 
taking to try to address the situation.
    Mr. Ellison. Yes, but I am asking you about your cohort 
there. I mean, isn't this a causal factor in the situation we 
have now?
    Ms. Kendrick. I am not willing to say the Department of 
Justice by itself is the sole cause of the problem.
    Mr. Ellison. But would you agree that they played a role?
    Ms. Kendrick. I would not say that, sir.
    Mr. Ellison. They played no role? Okay.
    Ten seconds just so Ms. Kendrick can answer?
    Ms. Kendrick. I can speak to what HUD has been doing in 
working with the Department of Justice to try to address this 
issue.
    As I said before and I think as we testified last year, we 
have been trying to take an aggressive approach to taking a 
look at these lenders, using the HMDA data. And by taking a 
look at these lenders who have these high pricing disparities 
and going and investigating these, filing complaints against 
these lenders, I think jointly the Department of Justice and 
HUD are trying to do those sorts of things, sir.
    Mr. Nadler. The time of the gentleman has expired. And I 
recognize for 5 minutes the gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Liu, you have referred to the 500 testing pairs several 
times. That is about one per congressional district. There are 
435 congressional districts; that is about one per district. 
What result did you find from those tests?
    Ms. Liu. Sir, I have already mentioned that we have brought 
some cases based on the results of those tests. Since the 
beginning of the testing program, I believe we have brought 
about 85 cases. Fifty-three or so of those----
    Mr. Scott. Wait a minute. Eighty-five cases were brought 
out of the 500 tests?
    Ms. Liu. No, 85 since the beginning of our testing program, 
which was begun in the early 1990's.
    Mr. Scott. Out of the 500 tests, what kind of differences 
did you detect from the protected classes? How were they 
treated differently?
    Ms. Liu. Well, we have one case that we are currently 
pursuing in the Detroit area, in Roseville, MI, in which we 
found that the owners and operators of the apartment complex 
were telling African-American testers that there were no 
apartments available while telling White testers that there 
were apartments available.
    Mr. Scott. Out of the 500 pairs, how often was 
discrimination detected?
    Ms. Liu. I can tell you that since September we have 
brought four cases. And I also want to add----
    Mr. Scott. Wait, wait. That is 1 percent experienced 
discrimination. Ninety-nine percent of the time there was no 
discrimination detected by the testers?
    Ms. Liu. Congressman Scott, whenever we find that the law 
and the facts justify bringing a case alleging discrimination, 
we do that.
    Mr. Scott. I have heard of studies that show that almost 
routinely when you send out pairs that there is a different in 
treatment. And you are saying that in about 99 percent of the 
cases, there is no difference in treatment. Is that your 
testimony?
    Ms. Liu. No, sir. My testimony is that whenever we find 
that the evidence and the law justifies bringing a case--and 
remember, we have pattern-or-practice authority and not general 
authority to bring cases alleging individual instances of 
discrimination----
    Mr. Scott. Well, I am not asking authority to bring a case 
or whether you can even make a case. What kinds of differences 
did you detect between the pair going into the same apartment? 
I mean, I assume this is not only apartments but 
homeownerships? You go into realtors----
    Ms. Liu. We do do sales testing, yes.
    Mr. Scott. Okay. And what kinds of differences--did you 
find a difference only in about 1 percent of the cases? Or was 
it routine, like everybody else in the world has seen?
    Ms. Liu. I think I have described earlier some of the kinds 
of differences that we have seen. And I can just state again 
that when we find that there is evidence to justify--remember, 
we are looking for pattern or practice----
    Mr. Scott. I am just asking a simple question. What kinds 
of differences did you detect from the way people were treated 
based on your pairs?
    Ms. Liu. We have seen members of protected classes being 
told that there are no apartments available----
    Mr. Scott. And how often does that occur?
    Ms. Liu. We have brought four cases based on----
    Mr. Scott. How often does it occur that people are given 
different stories about the availability of apartments? How 
often? One percent? Twenty percent? Fifty percent?
    Ms. Liu. I can't, as I sit here right now, put a number on 
that. I can tell you what we look for is whether or not we can 
bring a lawsuit. And where we think that we can based on----
    Mr. Scott. I am asking you a simple question, not whether 
you can bring a lawsuit, but what kinds of differences among 
people occur. And I am not getting an answer. I have got one 
answer, that 1 percent of the time there is a difference. And I 
think people would be shocked to hear that number, quite 
frankly. And you are under oath that 1 percent of the time 
people go finding an apartment, they are not given a different 
story.
    Now, the question is, how often were people given different 
stories?
    Ms. Liu. Sir, I don't know the answer to that question, 
because what we are looking for is whether or not we can file a 
case, whether the facts and the law warrant filing a case under 
our pattern-or-practice authority.
    Mr. Scott. Well, let me ask Ms. Kendrick, if you had 500 
pairs go out, how often would you expect them to get different 
stories?
    Ms. Kendrick. Since we don't have a testing program, sir, I 
really don't know the statistics on that.
    Mr. Scott. Have you seen studies of pairs going out?
    Ms. Kendrick. I can tell you based on our own cases that we 
take a look at, there are cases from 2007 where we had 10,000 
complaints of discrimination, and of those cases 40 percent we 
were able to settle. Certainly there was some discrimination 
that went on in those 40 percent of the cases.
    So I can't say specifically on paired testing, but based on 
our statistics, in about 40 percent of the cases we get, we see 
discrimination.
    Mr. Nadler. The time of the gentleman is expired. I now 
recognize for 5 minutes the gentleman from North Carolina.
    Mr. Watt. I am just going to continue exactly where Mr. 
Scott left off, because the HUD doesn't have testing in its 
repertoire of things that it can do, is that correct?
    Ms. Kendrick. That is correct. But I was just passed a note 
by my trusty colleague that says, under our housing 
discrimination study in 2000, we showed about 20 percent of the 
time we see discrimination in paired testing.
    Mr. Watt. Okay. The Department of Justice has testing 
authority, has used that testing authority, pairing authority, 
in 500 cases, 500 times, it says. I don't know how, even if you 
found 500, that would be a pattern or practice probably.
    There is a bill--Representative Al Green of Texas has 
introduced bill H.R. 2926 that would give HUD testing 
authority, this kind of pairing testing authority that is not 
being used effectively by Justice. Does the Department of 
Housing and Urban Development have a position on Representative 
Green's bill?
    Ms. Kendrick. I have not had an opportunity to review the 
congressman's bill yet.
    Mr. Watt. Okay, but will you go back and do that----
    Ms. Kendrick. Yes, I will.
    Mr. Watt [continuing]. And report back to us about whether 
you all have an opinion about it?
    Ms. Kendrick. Yes, I will.
    Mr. Watt. Okay. That would give you broader authority to do 
the kinds of paired testing that is being done.
    Ms. Liu, I know you have no interest in second-guessing the 
statement that the Attorney General made in which he rejected 
the idea of creating a national task force to combat the 
country's mortgage fraud crisis and called the situation 
``regular white-collar crime'' even though it has thrown the 
whole economy into absolute distress, just ``regular white-
collar crime.''
    And your response to it is, well, you deal with housing 
discrimination, you deal with pattern-or-practice, and the 
Justice Department operates in these different silos where 
somebody over there can prosecute corporate fraud and you can 
do housing, you are the Civil Rights Division and--you know.
    It seems to me that everything you have said--although you, 
justifiably so, don't want to say that the Attorney General is 
out to lunch by refusing to acknowledge this as a 
multidisciplinary problem--everything you have said suggests 
that there needs to be a more coordinated approach to dealing 
with these issues of discrimination: failure to be fair in loan 
terms, directing people.
    Unlike what Mr. Franks says, when people elect to get 
subprime loans, the great bulk of the evidence is that people 
were directed by one means or another, quite often through 
discriminatory means, to subprime loans even though they would 
have qualified, in 60 percent of the cases, for regular prime 
loans, and disproportionately more for minorities. All of that 
evidence is in the record in Financial Services, which I happen 
to sit on also.
    Don't you think there needs to be a more coordinated, 
multidisciplinary, outside the silos that you all operate 
approach to dealing with this?
    This is the Justice Department, and basically you have just 
said, ``This is localized crime, and we are going to let local 
people deal with this.'' That is ridiculous, isn't it, Ms. Liu?
    Ms. Liu. Congressman Watt, I appreciate your remarks, but I 
am not----
    Mr. Watt. You appreciate them, and you agree with them, 
don't you?
    Ms. Liu. I didn't say that I appreciate----
    Mr. Watt. I mean, but everything you have said suggests 
that there needs to be some coordination of this effort, which 
is exactly what we have asked the Attorney General to do.
    Ms. Liu. Sir, I am not in a position to go beyond what the 
Attorney General has said, or I am certainly not in a position 
to second-guess his excellent judgment.
    Mr. Watt. Well, in that case, you may find him to have 
excellent judgment in some cases. In this case, everything that 
you have said suggests that his judgment is not so excellent, 
Ms. Liu.
    I yield back.
    Mr. Nadler. On that note, I want to thank the witnesses on 
this panel. And thank you very much.
    And we will ask the second panel to come forward. And while 
they are taking their seats, I will read the biographical 
information so as to save time.
    Our first witness will be Mr. Jim Carr, who is the chief 
operating officer for the National Community Reinvestment 
Coalition. He is also a visiting professor at Columbia 
University in New York and at George Washington University in 
Washington, DC
    Prior to his appointments to NCRC, Mr. Carr was senior vice 
president for financial innovation, planning and research for 
the Fannie Mae Foundation and vice president for research at 
Fannie Mae. He has also held posts as assistant director for 
tax policy with the U.S. Senate Budget Committee and research 
associate at the Center for Urban Policy Research at Rutgers 
University.
    He holds a bachelor of architecture degree with honors from 
Hampton University, a master of urban planning degree from 
Columbia, and a master of city and regional planning from the 
University of Pennsylvania.
    Shanna Smith has served as president and CEO of the 
National Fair Housing Alliance since 1990. NFHA has recently 
released its 2008 Fair Housing Trends report, ``Dr. King's 
Dream Denied: Forty Years of Failed Federal Enforcement.''
    Prior to joining NFHA, she was executive director of the 
Toledo Fair Housing Center. Ms. Smith has a B.A. from the 
University of Toledo.
    Suzanne Sangree has been a chief solicitor in the Baltimore 
City Department of Law since March 2007. She is the counsel in 
the case Baltimore v. Wells Fargo, a Fair Housing Act case 
alleging racial discriminatory and predatory lending. Her other 
work includes low-income energy assistance, foreclosure 
prevention and relief, and issues affecting the homeless.
    Previously, Ms. Sangree was director of appellate advocacy 
at the Public Justice Center and taught at the University of 
Maryland School of Law, the Washington College of Law at 
American University, and the West Virginia University College 
of Law.
    Ms. Sangree received her LLM from Harvard Law School.
    Professor Stan Liebowitz is the Ashbel Smith professor of 
economics in the management school at the University of Texas 
at Dallas and is head of the Center for the Analysis of 
Property Rights and Innovation.
    In addition to five books, he has published over 60 
academic articles in journals. Professor Liebowitz's research 
interests include the economic impact of new technologies, 
intellectual property, anti-trust, and mortgage discrimination.
    He holds a Ph.D. in economics from UCLA and a B.A. from 
Johns Hopkins University.
    Audrey Wiggins is the director of the Fair Housing and 
Environmental Justice Project at the Lawyers' Committee for 
Civil Rights Under Law.
    During her 10 years at the Lawyers' Committee, she has also 
served as a senior counsel for the Employment Discrimination 
Project, litigating employment discrimination cases involving 
racial, national origin, and sexual discrimination in the 
workplace.
    Ms. Wiggins received her undergraduate degree cum laude in 
broadcast journalism from Hampton University and a juris 
doctorate degree from North Carolina Central University.
    Immediately prior to joining the Lawyers' Committee, she 
was an attorney advisor for the U.S. Commission on Civil 
Rights.
    I am pleased to welcome all of you.
    As a reminder, your written statements will be made part of 
the record in its entirety. I would ask each of you to 
summarize your testimony in 5 minutes or less. To help you stay 
within that time, there is a timing light at your table. When 1 
minute remains, the light will switch from green to yellow, and 
then to red when the 5 minutes are up.
    It is the custom of the Committee to swear in witnesses. 
Would the witnesses please stand and raise your right hand?
    [Witnesses sworn.]
    Mr. Nadler. Let the record reflect that the witnesses 
answered in the affirmative.
    Mr. Carr, you are recognized for 5 minutes. Thank you.

 TESTIMONY OF JAMES H. CARR, CHIEF OPERATING OFFICER, NATIONAL 
                COMMUNITY REINVESTMENT COALITION

    Mr. Carr. Good morning, Mr. Chairman, Ranking Member 
Franks, and other distinguished Members of the Subcommittee. On 
behalf of the National Community Reinvestment Coalition, I am 
honored to share with you today our thoughts on the context for 
and effectiveness of the Fair Housing Act of 1968.
    The National Community Reinvestment Coalition is an 
association of more than 600 community-based organizations that 
promote access to banking services and supports sustainable, 
affordable homeownership, job creation, and vibrant communities 
for America's working families.
    Members of the Subcommittee, we applaud your efforts to 
ensure equal housing opportunities for all Americans by 
convening this hearing.
    Discrimination is irrational and counterproductive to the 
common good of the Nation. It stifles human potential, 
undermines the economic and social well-being of communities, 
and limits the Nation from reaching its potential as a fully 
inclusive and competitive society.
    Major disparities in economic and social advancement exist 
for African-Americans, Latinos, Native Americans, and other 
Asian communities. Lack of economic advancement, it is 
important to note, is not due to market forces or a lack of 
personal responsibility by people or communities of color.
    Rather, limitations on economic mobility and wealth 
accumulation are a direct result of more than a century of 
policies and practices that directly undermined access and 
opportunity for members of color. I would be pleased to discuss 
specific policies in the Q&A.
    The net result of discriminatory actions is the 
hypersegregated, isolated and disadvantaged communities that we 
see today.
    The goal of highlighting the historic role that 
discrimination has played, however, is not to point fingers, 
assign blame or to live in the past. Rather, it is important 
that America understand the fundamental underpinnings of public 
policy that have created the disparities we see today.
    Moreover, historically, the issue of discrimination has 
been argued solely on the basis of equality and justice. There 
is increasingly another critical reason to level the playing 
field by race/ethnicity. Globalization represents for America 
competitive challenges this Nation has never experienced. 
America cannot afford to stumble into the 21st century; the 
risks are too great.
    Yet we are already stumbling. Consider that by the middle 
of this century, half the U.S. population will consist of 
people of color. Yet this fastest-growing share of the Nation's 
population is disproportionately composed of people who are the 
least well-housed, the most tenuously connected to labor 
markets and financial markets, are disproportionately isolated 
from quality educational opportunities, and achieve relatively 
low levels of wealth.
    The Fair Housing Act was signed into law in 1968. A full 40 
years later, millions of instances of discrimination exist on 
an annual basis. As a result, we have 40 years of experience 
that the current enforcement system does not work.
    In response to this continued failure to enforce the law, 
we recommend the establishment of a new Cabinet-level agency 
focused on civil rights enforcement. This agency would report 
directly to the President of the United States and would be 
responsible for measuring, monitoring and eliminating all forms 
of discrimination from our society once and for all.
    And given the importance of housing to accessing 
opportunity for social and economic advancement, housing-
related laws would be among the agency's highest priorities. 
This position is essential. And I outline this proposal and 
others in my written testimony.
    Enforcing the law would immediately open the door for 
millions of households that are prepared to access opportunity 
today but for whom their only impediment is illegal denial of 
access. Let's open that door, let equality and justice prevail.
    Thank you.
    [The prepared statement of Mr. Carr follows:]
                  Prepared Statement of James H. Carr

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Nadler. I thank the gentleman.
    I will now recognize for 5 minutes for an opening statement 
Ms. Sangree.
    Let me just explain. Ms. Smith--I normally proceed in 
order, but she has something, a video thing, that isn't quite 
ready yet. So we will come back to her.
    Ms. Sangree is recognized for 5 minutes.

        TESTIMONY OF SUZANNE SANGREE, CHIEF SOLICITOR, 
                CITY OF BALTIMORE LAW DEPARTMENT

    Ms. Sangree. Thank you, Mr. Chairman, Ranking Member 
Franks, Members of the Committee. I am Suzanne Sangree. I am a 
Chief Solicitor in the Baltimore City Department of Law, 
testifying on behalf of the Mayor and City Council of 
Baltimore.
    Baltimore is a case study of the damage that has befallen 
cities in the absence of aggressive Federal enforcement of our 
civil rights laws, especially the Fair Housing Act of 1968. In 
particular, lax enforcement of the Fair Housing Act, combined 
with Federal relaxation of Federal banking regulations and 
Federal preemption of States' abilities to regulate lenders, 
created an environment in which predatory lending flourished. 
And Baltimore, a majority-African-American city, is now 
contending with the devastating economic fallout of this petri 
dish for racially targeted predatory lending.
    Baltimore City has turned to the Fair Housing Act as our 
best weapon for stanching the economic damage and obtaining 
resources to remedy it. The shapers of that act smartly 
fashioned it to have very broad standards for standing, and the 
Supreme Court has long recognized that cities have standing to 
sue under the act. But the shapers of the act always envisioned 
that the Federal Government would play a major role in 
enforcement of the act, and it has not done so.
    Like other American cities with large non-White populations 
and a history of racial segregation, Baltimore was particularly 
vulnerable to racially targeted predatory lending. And that is 
because racially targeted predatory lending happens when two 
conditions are present. This has been pointed out by several of 
the representatives here today. A history of red-lining, of 
denying credit to minority communities is the first condition. 
And the second condition is a history and a present, 
contemporary racial segregation in housing patterns.
    Baltimore has both of those conditions. Initially, our 
housing patterns were set with racially restricted housing 
covenants, which were enforced by the courts up until the 
1950's and 1960's. However, well into the 1970's, the siting 
and maintenance of public housing projects were also racially 
segregated. As late as the 1970's, the secretary for HUD, 
Romney at the time, admitted that the Federal Government had 
refused to provide insurance in integrated neighborhoods, 
promoted the use of racially restrictive covenants, and engaged 
in other methods of red-lining.
    So we have condition number one, minority communities 
deprived of access to credit, and condition number two, as 
well, patterns of racial segregation.
    Not surprisingly, therefore, beginning in the 1990's, 
Baltimore was targeted for racially discriminatory predatory 
lending, and we are now contending with the tsunami of 
foreclosures that this lending has brought upon us. Since 2000, 
more than 33,000 homes have been subjected to foreclosure 
filing. In a city of 650,000 people, we are expected to have 
over 6,000 foreclosures this year.
    January 8 of 2008, the City of Baltimore filed suit against 
Wells Fargo under the Fair Housing Act, alleging that it had 
engaged in racially targeted predatory lending. It is also 
known as ``reverse red-lining.'' We chose to sue Wells Fargo 
because it is the biggest lender in Baltimore and it is among 
the lenders with the greatest racial disparity in their lending 
practices.
    And to give you some of the examples which are in our 
complaint, which is attached as an exhibit to my written 
remarks, in 2006 Wells Fargo made high-cost loans to 65 percent 
of its African-American mortgage customers in Baltimore, but 
high-cost loans were only made to 15 percent of its White 
customers in Baltimore.
    Refinanced loans were even worse. An African-American 
borrower was two-and-a-half times more likely to have a high-
cost loan in a refinance than a White borrower. And we see 
similar racial disparities in foreclosure rates as well. 
African-American borrowers have four times the rate of 
foreclosure in Baltimore than White borrowers.
    And it is interesting to note, although we have not had 
access to borrowers' credit scores yet, because we haven't 
gotten into discovery, a study that is being done by the Annie 
E. Casey Foundation in 13 cities including Baltimore concludes 
that for Baltimore, when one corrects for credit scores--this 
researcher has access to Experian credit scores--when one 
corrects for credit scores in Baltimore, there is a very high, 
meaning over 15 percent, racial disparity in Baltimore 
neighborhoods for refinances in 2006 and a high to medium, 
meaning 5 to 15 percent, racial disparity for purchase loans in 
2006.
    Mr. Nadler. The time is expired. Can you wrap up very 
rapidly?
    Ms. Sangree. Yes, I can.
    The impact of this predatory lending and the foreclosures 
that it has spawned is quite devastating to municipalities. A 
study, in 2006 alone, the city lost $41.9 million in tax 
revenues. And between 2004-2005, a total of $17.8 billion in 
real estate value was lost.
    Thank you.
    [The prepared statement of Ms. Sangree follows:]
                 Prepared Statement of Suzanne Sangree
    Members of the Committee, my name is Suzanne Sangree, and I am a 
Chief Solicitor in the Baltimore City Department of Law, testifying on 
behalf of the Mayor and City Council of Baltimore. Thank you for 
inviting me to speak with you today.
    Baltimore is a case study of the damage that has befallen cities in 
the absence of aggressive federal enforcement of this nation's civil 
rights laws, especially the Fair Housing Act of 1968. In particular, 
lax enforcement of the Fair Housing Act, combined with federal 
relaxation of federal banking regulations and federal preemption of 
states' ability to regulate lenders, created an environment in which 
racially discriminatory predatory lending flourished. Baltimore, a 
majority African-American city, is currently contending with the 
devastating economic fall out of this petri dish for racially targeted 
predatory lending. The City has developed and continues to develop a 
six pronged approach to staunching the resulting economic damage and 
repairing it. Litigation against the wrong doers is one prong of our 
plan; act one of this prong being our Fair Housing Act suit against 
Well Fargo for reverse redlining. In the absence of federal enforcement 
cities have been left to contend for themselves. Under the leadership 
of City Solicitor George Nilson, and our co-counsel John Relman and 
Brad Blower of Relman & Dane, Baltimore City turned to the Fair Housing 
Act as our best weapon for fending off reverse redlining and obtaining 
relief to repair the damage it has been inflicted. The shapers of that 
Act smartly provided a broad capacity for standing to sue and the 
Supreme Court has long recognized that Cities have standing under the 
Act. However, it was always envisioned that the federal government 
would play a leading role in enforcing it. It has not.
    Like other American cities with large non-white populations and a 
history of racial segregation, Baltimore was particularly vulnerable to 
predatory lending. This vulnerability is caused by two complimentary 
factors: 1) a history of denying minorities access to credit; and 2) a 
history of racially segregated living patterns. Communities that for 
generations had been locked out of credit and housing opportunities, 
because of redlining are rendered desperate for credit and without the 
knowledge or experience required to identify loan products and lenders 
offering better terms. When one's only experience with loan 
applications has been no--it is common to jump on the first yes without 
much critical evaluation.
    The fact that these vulnerable communities are geographically 
concentrated and so easily targeted by abusive lenders sets up the 
second condition. Unfortunately Baltimore suffers from both of these 
conditions.
    Our solid patterns of racial segregation were initially enforced by 
racially restrictive convenants. In 1954, within months of the Supreme 
Court's Brown I decision, forward looking Baltimore officials decided 
to desegregate the City's low-income housing units. However, well into 
the 1970's and later the siting and maintenance of racially segregated 
public housing continued to reinforce Baltimore's patterns of housing 
segregation. Importantly, redlining practices by federal and state 
government authorities--and private entities--mortgage lenders, 
insurers--also created barriers to desegregation. The Secretary of the 
United States Department of Housing and Urban Development admitted in 
1970 that the federal government had ``refused to provide insurance in 
integrated neighborhoods, promoted the use of racially restricted 
covenants,'' and engaged in other methods of redlining. Data from the 
1980's, long after the institutionalized government and corporate 
apparatus of discrimination had been formally dismantled, shows that 
the more African-American residents in a Baltimore neighborhood, the 
fewer the mortgage loans and dollars the neighborhood received. And 
while we are 64% African-American and 32% white, today's map of our 
neighborhoods shows that many still have very high concentrations of 
one race or the other.
    As the presence of these two conditions would predict, beginning in 
the late 1990's Baltimore has been targeted for predatory loans, and 
this fact is reflected in the wave of foreclosures currently wracking 
the City. Since 2000, more than 33,000 homes have been subjected to 
foreclosure filings. From the first to the second quarter of 2007 
foreclosure activity in the City increased five-fold. Moreover, we 
expect this year to be even worse than last year as an additional 4,300 
ARMs adjust to higher rates in the City, often to rates the borrowers 
cannot afford. Another 2,000 ARMs readjust in 2009. During the first 
quarter of 2008 alone 1,447 foreclosure filings were made in Baltimore 
City.
    On January 8, 2008 Baltimore City filed suit against Wells Fargo in 
the federal district court of Maryland alleging that Wells Fargo 
engaged in reverse redlining, i.e. that it has targeted Baltimore's 
African-American neighborhoods for bad loans. We chose Wells Fargo 
because it is one of the largest mortgage lenders in Baltimore and it 
has the greatest number of foreclosures in the City. Since 2004 to the 
present, Wells Fargo has made over a 1,000 mortgage loans per year in 
Baltimore City. No other lender made more than 1,000 mortgage loans in 
Baltimore during these years. In addition, the racial disparities in 
lending practices for Wells Fargo loans were among the greatest of all 
lenders. But there are certainly other bad actors in the City, and we 
hold them accountable as well.
    Home Mortgage Disclosure Act (HMDA) data reveals the racial 
disparities in Wells Fargo lending practices in Baltimore. As 
documented in the attached complaint, in 2006 Wells Fargo made high-
cost loans to 65% of its African-American mortgage customers in 
Baltimore, but to only 15% of its white customers in Baltimore. Wells 
Fargo's refinance loans were even worse: in 2004, 2005, and 2006, a 
Wells Fargo refinance loan to an African-American borrower was 2.5 
times more likely to be high cost than a refinance loan to a white 
borrower. In addition, Wells Fargo's pricing sheets require that 
equally credit worthy borrowers in predominantly African-American 
neighborhoods pay higher interest rates compared to their counterparts 
in white neighborhoods, imposing thousands of dollars in extra interest 
payments on African-American borrowers.
    Interestingly, research recently conducted by Chris Herbert of Abt 
Associates Inc. for the Annie E. Casey Foundation confirms that race 
accounts for lenders' disparate lending practices in Baltimore 
neighborhoods and not credit scores or other risk factors. He has 
analyzed HMDA, Census Bureau and credit scores from the credit bureau 
Experian for selected neighborhoods in 13 cities, including Sandtown/
Winchester/East Side Revitalization Area in Baltimore. He concludes 
that when one corrects for credit scores, there is a ``Very High'' 
(over 15%) racial disparity in these Baltimore neighborhoods for 
refinances for 2006, and a ``High/Med'' (5-15%) racial disparity for 
purchase loans in 2006. Wells Fargo Bank NA was the most active lender 
in both categories in Baltimore. In other words, even after taking the 
credit characteristics of borrowers into consideration, Wells Fargo was 
ranked first among lenders in Baltimore for having the largest 
disparity in the prices it charged African Americans versus whites.
    As our complaint documents, Wells Fargo also has one of the highest 
foreclosure rates of any lender in Baltimore and its foreclosure rates 
in majority African American neighborhood is 4 times the rate in 
majority white neighborhoods. Two thirds of Wells Fargo foreclosures in 
Baltimore in 2005 and 2006 were in census tracts more than 60% African 
American, while only 16% were in tracts that are less than 20% African 
American. Wells Fargo foreclosure rate for loans in African American 
neighborhoods is nearly double the overall City average, while the 
loans in white neighborhoods is less than half of the average.
    An interesting fact about Wells Fargo loans in Baltimore is that 
fixed rate loans constitute the majority of Wells Fargo's foreclosures. 
With contemporary underwriting methods lenders can reliably predict 
whether a borrower will be able to repay a fixed rate loan (debt to 
income ratio/loan to value/FICO/work history etc) the loan payments do 
not change over the life of the loan. However, even though 70% of Wells 
Fargo's foreclosures in both the African-American and white 
neighborhoods are on fixed rate mortgages, African Americans are nearly 
4 times more likely to be foreclosed upon by Wells Fargo than whites. 
This is compelling evidence that Wells Fargo followed a policy of 
putting African Americans into loans they could not afford.
    When people are locked into mortgages that they cannot afford--they 
will soon fall behind on payments and foreclosure will often result. 
This pattern of predatory lending and foreclosure is ravaging our City. 
The TRF/Goldseker Study, ``Foreclosures in Baltimore, Maryland'' found 
that Baltimore lost $41.9 million in tax revenue in 2006 alone because 
of foreclosures. Lost property values across Baltimore in 2004 and 2005 
total $17.8 billion.
    Baltimore incurs increased code enforcement, police and fire costs 
when buildings remain vacant. And the dollars and effort spent to 
nurture neighborhoods and to spark and maintain the urban renaissance 
the City had been undergoing, are being washed down the drain, as up 
and coming neighborhoods are stalled and even reversed in their 
economic progress.
    The City seeks compensatory and punitive damages from Wells Fargo 
in order to mend the damage that company's predatory lending has 
inflicted and to deter such conduct in the future. We would welcome 
federal law enforcement partnership in ensuring that such racially 
discriminatory practices do not occur in the future.

    Mr. Nadler. Thank you.
    There are, as some people may have noted, five votes on the 
floor pending. One vote has 5 minutes left; the others are 5-
minute votes. So the Committee will stand in recess pending the 
end of the votes.
    I ask the Members to come back as soon as the last vote is 
completed. We will reconvene after the last vote. My estimate, 
but it is only that, is about 12:15. It could be a little 
earlier, a bit later.
    So the Committee will stand in recess. We ask the 
indulgence of the witnesses. The Committee will stand in recess 
until after the votes on the floor.
    [Recess.]
    Mr. Conyers. [Presiding.] Mr. Liebowitz, are you prepared 
to give your statement? We have been waiting anxiously for you 
to begin whenever you choose.

    TESTIMONY OF STAN LIEBOWITZ, ASHBEL SMITH PROFESSOR OF 
      MANAGERIAL ECONOMICS, UNIVERSITY OF TEXAS AT DALLAS

    Mr. Liebowitz. Thank you.
    As we all know, the major economic news for the last year 
has been the disarray in the mortgage market. Now, the question 
is, how did we get here?
    And it is not like there is necessarily one single answer. 
But one key component is that the Government in the 1990's 
began to base its housing policy on several flawed claims. I 
believe these claims poisoned the working of the mortgage 
market, and now the economy is suffering.
    The poison began with the claim that minorities were being 
denied mortgages because of racial discrimination. Now, I am 
sure, as most of the people in this room know, every year after 
HMDA data were made available, newspapers have run stories 
reporting on the discrepancies in denial rates between 
minorities and Whites.
    The charges against the mortgage lenders were made based on 
the difference in denial rates, which were undeniable. There 
were clearly large differences. But the individuals making the 
claim, in the newspapers certainly and I think their political 
backers, I think it is fair to say they were hell-bent on 
finding discrimination, whether it was there or not.
    Now, it was obvious to a more sophisticated audience that 
the HMDA data were inadequate for testing whether 
discrimination was actually going on. To solve that problem, an 
expanded data set was created by the Boston Fed to allow a more 
complete analysis of the question. The researchers at the 
Boston Fed performed a study using this data, and they 
concluded that 40 percent of the higher minority mortgage 
rejection rate was due to discrimination.
    Unfortunately, this data set was created with insufficient 
care. The data had apparently never been examined for 
transcription errors. When my coauthor and I actually looked at 
the numbers contained in the data set, it was clear that the 
numbers were, in many cases, outrageously unreliable. The data 
set could not provide a basis for a claim that mortgage lenders 
in Boston discriminated against minorities.
    Full details are available in my 1998 article, published in 
the economics journal Economic Inquiry, which is attached 
somewhere to your sheet.
    Nevertheless, Government officials and regulatory agencies 
showed no interest in getting to the truth of the matter. In a 
rush to judgment and before any outside analysis of the Boston 
Fed study could even take place, the study was described as 
definitive and conclusive in various quarters. In other words, 
it appeared that the fix was in.
    The Boston Fed study was just a fig leaf for continuing 
attacks on the mortgage industry. Under the guise of ensuring 
greater minority participation in the housing markets, 
traditional lending standards were attacked as a form of 
discrimination.
    It was claimed that mortgage applicants could handle larger 
obligation ratios than those imposed by traditional standards. 
It was claimed that mortgage applicants could make their 
monthly payments without having been consistently at a job. It 
was claimed that mortgage applicants didn't need to be able to 
come up with a downpayment. It was suggested that mortgage 
applicants should be deemed credit-worthy if they watched some 
sort of educational video about the mortgage process.
    This was all nonsense. The old obligation ratios and 
standards served a purpose. The purpose is to make sure that 
the people lending the money got their money back and the 
people borrowing the money would stay in their houses.
    When you build the housing market on false claims, it 
follows you are asking for trouble. The unusually high current 
defaults would not be occurring in such large numbers if 
substantial downpayments had been made on the homes that are 
out there now. We can thank relaxed lending standards for that. 
The recent price bubble was unlikely to have occurred with such 
a vengeance if the relaxed lending standards were not in place. 
It is much easier to speculate on house prices if no money 
needs to be put down and if income does not need to be 
verified. Nor is it likely that the secondary market would have 
purchased so many bad loans without those claims.
    The oft-repeated praise of relaxed lending standards 
provided justification to investors for the belief that 
secondary market loans were a AAA. If you examine sales pitches 
that were being made for mortgages in the secondary market, you 
will see those claims being echoed.
    Although there are many other contributing factors, I think 
the proliferation of relaxed lending standards is at the 
center. And if we do not learn from the past, we deserve the 
future.
    Thank you.
    [The prepared statement of Mr. Liebowitz follows:]
                  Prepared Statement of Stan Liebowitz

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you, Mr. Liebowitz.
    Good afternoon, Ms. Wiggins.

  TESTIMONY OF AUDREY J. WIGGINS, DIRECTOR, FAIR HOUSING AND 
  ENVIRONMENTAL JUSTICE PROJECT, LAWYERS' COMMITTEE FOR CIVIL 
                        RIGHTS UNDER LAW

    Ms. Wiggins. Thank you, Mr. Chairman. Are you ready for me 
to begin now? Thank you.
    I am Audrey Wiggins. I am the director of Fair Housing and 
Environmental Justice at the Lawyers' Committee for Civil 
Rights Under Law. Thanks to you, Chairperson Conyers and all 
the other Members of the Subcommittee, for having this 
important hearing on the enforcement of the Fair Housing Act at 
this point in history and inviting the Lawyers' Committee to 
participate.
    I am honored to provide testimony as an advocate for those 
brave enough to challenge discriminatory practices that the 
Department of Justice and HUD have left unchecked.
    The law correctly empowers individuals to bring fair 
housing cases, but neither the intent nor the spirit of the law 
requires that individuals act alone. Both DOJ and HUD have 
unique authority, resources and obligations to enforce the Fair 
Housing Act, yet communities have emerged as the private 
attorneys general in the enforcement of the Fair Housing Act.
    I think all of us on both the panels have expressed the 
belief that housing choice should be free from discrimination 
and that no one should be denied shelter because of their race. 
Yet why are we at odds?
    Those reasons that I believe are described more in depth in 
my written testimony. I wanted to briefly talk about two cases 
of the Lawyers' Committee.
    One occurred right after Hurricane Katrina. With the 
backdrop of the human crisis of people trapped on the roof of 
their homes and jammed in municipal arenas, St. Bernard Parish 
in Louisiana, which borders Orleans Parish, issued an ordinance 
that prevented single-family homeowners from renting to anyone, 
with one exception: a blood relative.
    According to the 2000 census, the parish population was 
roughly 90 percent White, and 93 percent of all those single-
family homeowners who could only rent to their relatives were 
also White. Thus, the ordinance has a disparate impact on 
potential renters of color.
    Although HUD did investigate some complaints, neither HUD 
nor DOJ took any enforcement action against this blatantly 
discriminatory blood-only ordinance. Instead, in cooperation 
with the Greater New Orleans Fair Housing Action Center and the 
law firm of Relman & Dane, it was the Lawyers' Committee who 
filed a Federal complaint against St. Bernard Parish.
    You have already heard statistics about FHEO's office. In 
2004 and 2005, the General Accounting Office issued reports 
analyzing the intake and investigation practices of FHEO. At 
that time, the GAO found that 39 percent of HUD matters were 
over 100 days old.
    Our client, James Perry, who is the executive director of 
the Greater New Orleans Fair Housing Action Center, soon after 
Hurricane Katrina saw some Internet ads from individuals who 
wanted to house certain people to help those that were 
displaced. Some of the ads he saw stated, ``Not racist, but 
white only;'' ``Two bedrooms, private bath, use of whole home 
for a white family up to five;'' and, ``We would prefer a 
middle-class white family.''
    As those ads were printed in a newspaper, they would no 
doubt be found as violations of the Fair Housing Act. And, with 
our assistance, Mr. Perry filed several complaints with HUD's 
FHEO office in December of 2005. To date, more than 2 years 
after his filing of these complaints, they are still pending 
with the FHEO office.
    To wrap up, either those of us in the fair housing 
community are right and the Federal Government should apply its 
authority and full resources to ensure the breadth of the Fair 
Housing Act is protected and enforced in all aspects, or those 
from the Federal Government are right and there is no problem 
with the narrowing of the scope of the Fair Housing Act and the 
selective enforcement of its provisions. Because the Lawyers' 
Committee and other advocates in the fair housing community 
will bring the cases. So the answer is, we cannot both be 
right.
    We urge Members of Congress, and this subcommittee in 
particular, to use the full force of your authority and 
influence to make sure that all who are protected under the 
Fair Housing Act are served by their Government.
    We beseech you to require that the staff of the Department 
of Justice and HUD in this Administration and the next will 
fulfill their obligations under the act to investigate and 
litigate cases challenging race discrimination, especially 
cases that challenge systemic discrimination and pattern-and-
practice and impact cases.
    Thank you.
    [The prepared statement of Ms. Wiggins follows:]
                Prepared Statement of Audrey J. Wiggins

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you very much, Attorney Wiggins.
    Ms. Smith, are you ready to roll?

TESTIMONY OF SHANNA L. SMITH, PRESIDENT AND CEO, NATIONAL FAIR 
                        HOUSING ALLIANCE

    Ms. Smith. Yes, Mr. Chairman. I am going to reserve 1 
minute at the end to show a public service announcement. Thank 
you for the invitation to come here.
    Listening to the questions that arose--we were talking 
about the 3.7 million and what are we going to do about it--I 
want to announce that the National Fair Housing Alliance, the 
Leadership Conference on Civil Rights, the NAACP Legal Defense 
Fund, and the Lawyers' Committee for Civil Rights Under Law has 
formed the commission; it is called the National Commission on 
Fair Housing and Equal Opportunity.
    It is being chaired by former secretaries Jack Kemp and 
Henry Cisneros. We will be having four hearings across the 
country to talk about what are the problems, what are the 
issues, what can we do to make the enforcement of the Fair 
Housing Act an actual reality. And we will be presenting that 
report in December to your Committee and to the new 
Administration.
    The purpose of my testimony is to talk about the failure of 
enforcement at HUD and the Department of Justice. As we all 
know, the Fair Housing Act had two purposes. The first was to 
eliminate housing discrimination; the second, to promote 
residential integration throughout the country.
    And 10 years ago I testified before this Committee, and I 
implored the Committee to give the Department of Justice money 
for its testimony program, because testing is so critical to 
uncovering not just the individual cases of discrimination, but 
the pattern and practice, the large, systemic, 
institutionalized practices in this country.
    The department has been doing a good job when it comes to 
sexual harassment in housing cases. I applaud them for that. 
They have done some pretty good design and construction cases.
    The failure is in the rental market, the sales market, the 
lending market, and the insurance market. While they have been 
doing rental cases, they have not focused on the major, large 
rental management companies in the United States.
    In fact, after Katrina, we were able to do testing and 
identified the largest rental management company in the 
Southeast that engaged in discrimination. We filed complaints 
with HUD, and that one complaint that we filed in December of 
2005 has been conciliated. All the other Katrina complaints we 
filed with HUD remain open.
    In the Department of Justice, when I think of their testing 
program, I would suggest to the Committee to talk to present 
and former employees of the Department of Justice, because I 
have heard that the testing is moving forward, that they have 
produced pretty good evidence, but they have not received 
authorization to file those cases.
    The testing program is incredibly valuable, but it must be 
used in mortgage lending. The Department of Justice could 
actually test through the whole mortgage-lending process and 
get to where the discrimination, particularly in the subprime 
and predatory market occurs, and that is at closing. I can't do 
that testing, because if we fill it out, it says it is a felony 
if we do this on the mortgage loan application.
    So at Justice we need to get them to do testing that is 
totally focused on the systemic issues. They should be testing 
the largest real estate companies in this country. They should 
be testing the largest mortgage lenders and subprime lenders. 
And they should be looking at the homeowners' insurance issue.
    Now, to HUD. On the age of cases, for me, it is just 
ridiculous that any of HUD's cases should be aged. The majority 
of their cases are rental cases, and, with all due respect, a 
rental case is not, you know, brain surgery. It is going in to 
see if an apartment was available or it wasn't available at the 
time that the person applied for it.
    One of the problems is that we have 10 little HUDs all over 
the country. We have a court decision in the 2nd Circuit 
saying, you know, how can one HUD say this, sub-office, and how 
can the other division of HUD say something else?
    And, finally, we were talking about why the number is so 
low. Two big reasons: HUD did its own survey that said people 
have no confidence in filing a complaint with the Federal 
Government of housing discrimination. The second is the failure 
to do media campaigns, appropriate media campaigns.
    And the commercial you are going to see now is something we 
produced in 2003. HUD failed to fund its national media 
campaign in 2005 and 2006. And what you saw that Assistant 
Secretary Kendrick showed you is their current ad campaign. And 
I just want you to compare the ad campaigns, because the ad 
campaigns are supposed to have a call to action and motivate 
people to file complaints.
    (Video played.)
    Ms. Smith. My time is up, but I wanted you to see that, 
because HUD tried to block us issuing this, even though they 
paid for the campaign. They ordered us to remove their name 
from the spot.
    When we had a meeting with Kim Kendrick when she was 
assistant to Secretary Jackson in the Office of Public 
Affairs--the FHEO office had supported this commercial, and the 
Ad Council helped us develop it. The Office of Public Affairs 
said, ``This commercial will offend lenders.''
    And Kim Kendrick said she didn't think her grandmother 
would understand it, and required us to do more focus group 
testing and required us--we already had 5,000 of it ready to go 
out to all the TV stations and radio stations and print ads all 
across the U.S.--made us remove their name and their phone 
number from the print campaign.
    And then, subsequent to that, they didn't continue the 
national media campaign that should have been the follow-up to 
this and help people avoid predatory lending.
    [The prepared statement of Ms. Smith follows:]
                 Prepared Statement of Shanna L. Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Did anybody ever see it?
    Ms. Smith. Actually, we released it anyway, and it appeared 
on CNN. And we have documentation to show that our members' 
complaints in mortgage lending increased significantly because 
these ads were out.
    Now, her current campaign, they spent a million dollars on 
it. All you heard her say is you are getting one television 
spot, you are getting some public forum and a tool kit. For a 
million dollars, we got television spots, radio spots, we have 
this in English and Spanish, radio spots, print materials that 
went on billboards, buses, posters that went all over the 
United States, and we set up an 800 number so people could see 
these ads, read the print thing, hear things on radio, and give 
us a call.
    And I can tell you, television public service announcements 
rarely get aired. You have to have a massive radio campaign. 
And I have these ads up here because State Farm Insurance 
joined us to start promoting the benefits of multicultural, 
multiracial neighborhoods.
    And, you know, we look at the corporations, everybody--
many, many corporations have a very diverse workplace but 
people go home to segregated neighborhoods. So how are we going 
to make change in this country?
    So we met with some of the corporations, and State Farm has 
given us $800,000 to do a campaign directed to White, suburban 
communities to say, ``Here is the benefit of multicultural, 
multiracial associations. Open up your neighborhoods.''
    But we will never get there if we are not investigating the 
real estate sales companies who stop African-Americans from 
moving into neighborhoods, as they did in Detroit. We have a 
lawsuit pending against this real estate company in Detroit. 
Well, they are not in Detroit. They have 16 offices outside of 
the city of Detroit. And they----
    Mr. Conyers. I wonder who ``they'' are.
    Ms. Smith. I am sorry?
    Mr. Conyers. I wonder who ``they'' are.
    Ms. Smith. Century 21 Town and Country. And we filed a 
Federal lawsuit after--and at the same time, the Michigan 
Department of Civil Rights charged our case against them.
    We found that they were steering Whites into Grosse Pointe, 
and even when African-Americans asked to see Grosse Pointe, 
they were steered into the beautiful area of East English 
Village. And Whites were denied the opportunity to see East 
English Village. I drove through there, took pictures. 
Beautiful neighborhood, great brick and stone homes. But these 
real estate agents engaged in steering.
    We tested 14 of the agents. We found nine of the agents, in 
our opinion, that they were violating the Fair Housing Act. We 
shared that information with the Department of Justice. They 
said it is not a pattern and practice.
    Mr. Conyers. Well, when do you determine to go to HUD first 
to file a complaint, as opposed to going to Department of 
Justice?
    Ms. Smith. Well, we have a number of cases pending before 
HUD. We often immediately file with HUD because it stops the 
statute of limitations from ticking. And then we meet with the 
Department of Justice. We don't always get a chance to--I mean, 
the staff is very open to talking to us about our cases.
    And the issue is that we did the follow-up testing of HUD's 
housing discrimination study, and we conducted 145 paired 
tests. We found an 87 percent rate of racial steering in sales 
properties in the United States in 12 metropolitan areas.
    HUD has all of our evidence. The Department of Justice has 
access to all of that evidence. HUD, on Monday, finally charged 
one of the cases. These complaints started to be filed in 2005. 
On Monday, they filed a case that is in suburban Chicago. All 
the other complaints are just sitting at HUD.
    We have a number of lawsuits that we have filed now. We 
have stopped taking our design and construction complaints to 
either HUD or Justice. We are just going directly into Federal 
court, because we want to see immediate change and not just 
something negotiated. And we want to see stronger 
implementation of the law.
    I mean, you know, I only have one attorney on my staff, so 
I rely on the Lawyers' Committee and Relman and Dane and the 
good works of Fried Frank and other law firms to help us.
    But we take them to HUD for two reasons. I want to see how 
the process is working. I have been doing this for 33 years. So 
I have seen it in the first 20 years of the law and this last 
20 years of the law. I am a cynical optimist. I keep wanting to 
use the process to make it work.
    Because you passed a law, it is supposed to work. We have 
the greatest civil rights law in fair housing than any of the 
other ones, but there is no will in the enforcement agencies at 
the Administration level to get it done. So we need the Housing 
Fairness Act to be passed, so that we can do the systemic 
investigations.
    I have met with the Office of Management and Budget, and 
they agreed with me a couple years ago when I said, ``We can't 
continue to do this case by case by individual case. We have to 
deal with the systemic and institutionalized nature of the 
problem.'' And they even said, ``Well, then your fair housing 
groups ought to have a systemic unit,'' and we said, ``Yes, 
they should.'' Now we need the money to do that.
    Mr. Conyers. I recognize the gentleman who is the Chair of 
the Crime Subcommittee of the House Judiciary Committee, Bobby 
Scott of Virginia.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, we only have 5 minutes, and when I used my 5 
minutes at the last panel I just asked the question, what did 
they find with the 500 pairs, and we got evasion and confusion 
and failure to answer.
    Ms. Smith, if the representative from the Department of 
Justice had testified truthfully and candidly, what kinds of 
schemes and tricks would she have described as a result of the 
500 testing pairs?
    Ms. Smith. If I look back at HUD's previous testing in the 
1990's, she would have been able to describe cases of rental 
discrimination all over the country, where African-Americans, 
Latinos or Asian-Americans inquired about the availability of 
apartments and were either, with a smile and a handshake, told, 
``You know, they are already all rented,'' or, ``We have three 
people on the waiting list, and I will get back to you,'' and 
then when the White tester went out they would have been given 
an apartment immediately.
    Mr. Scott. And how often does this occur?
    Ms. Smith. Well, my members do audit testing, which means 
they send testers out. When we have created the new fair 
housing groups in Boston and New Orleans and Fresno, 
California, we find a rate of discrimination anywhere from 47 
to 75 percent of discrimination against African-Americans, 
Latinos or Asian-Americans when they are looking for rental 
housing.
    Mr. Scott. Mr. Carr, if she had testified truthfully, what 
do you think she would have said?
    Mr. Carr. Congressman, the paired testing by national 
neighbors of the National Community Reinvestment Coalition 
reinforces the same findings that Ms. Smith has just indicated. 
We routinely find disparate treatment in at least 40 percent of 
instances, sometimes close to 50. And other research has shown 
it to be as high as more than 60 percent of the time.
    The range of disparities in information is really across 
the spectrum, in terms of units available, in terms of 
explaining financial terminology, in terms of call-backs. There 
are just huge disparities found in paired testing studies.
    So it would be just hard to believe that if someone 
developed a competent paired testing study, out of 500 cases, 
you wouldn't have at a very minimum somewhere around 200 of 
those cases showing some forms of important disparities that 
could have potentially limited housing opportunities.
    Mr. Scott. And that would be for each contact? I mean, that 
is, when you go to a rental unit, you would expect 
discrimination 40, 50, 60 percent of the time. So if you are 
looking for an apartment and have checked out five or six 
different units, and you experienced discrimination 40, 50 
percent of the time, it is virtually hard to believe that a 
person looking for a house wouldn't have run into some 
discrimination every time they have looked for a house, is that 
right?
    Mr. Carr. That is correct, yes.
    Mr. Scott. You mentioned apartments. What about steering 
for homeownership, for purchases, how often does that occur?
    Mr. Carr. We find the same general findings for 
homeownership and rental housing.
    Mr. Scott. And so, with 500 testers, you would think it 
would be incredulous that someone could not have found 
widespread discrimination in their testing?
    Mr. Carr. It is just simply hard to believe from any 
evidence and information that is available widely in the 
industry.
    Mr. Scott. And what about--we have heard testimony about 
subprime loans. How often would someone have discrimination in 
terms of mortgages?
    Mr. Carr. The subprime lending market is an area--one of 
the things that we said in our testimony is that we need better 
information. And the reason we need better information is 
because we continue, year after year after year, to have 
debates whereby, for example, the groups that represent 
consumers and minority households point out these severe 
disparities and the only defense is, ``Well, but you haven't 
looked at all the variables. And, therefore, it makes sense.''
    And what we say is, ``Well, stop hiding the variables. Give 
us the information. Make publicly available credit scores 
information, LTV, other product information. Remove from that 
information individual attributes, so that you don't know 
specifically whose loan you are looking at, but that you have a 
good, clear understanding of the industry.''
    We have found repeatedly, when there is good industry data 
provided on credit scores and others, that severe disparities 
continue to exist in the loan process.
    And I might say that the idea that a study by the Federal 
Reserve Board is somehow responsible for excessive subprime 
lending to communities is novel, to say the least. The fact of 
the matter is that the lending industry changed pretty 
dramatically. And people were writing about subprime loans, 
including me, as early as the late 1990's, early 2000.
    I published a study in 2001 called, ``Financial Services in 
Distressed Communities,'' and that study was not about trying 
to promote subprime lending. In fact, it was cautioning about 
the fact that consumers were being steered into the subprime 
market and, as well, predatory lending. These were just policy 
papers.
    We also did a review of the Boston Fed paper that was 
academically reviewed. And we found that the Boston Fed did 
contain a number of methodological errors, but our work found 
that those methodological errors were not determinative.
    And, in fact, the power of the Boston Fed study wasn't to 
suggest that consumers should get into the housing market using 
alternative credit scores and alternative data. The real power 
of that was to say that, when individuals had blemishes in 
their credit record, they weren't treated the same.
    To the extent that Black and Latino households had perfect 
credit records and credit scores, they were treated pretty 
well. But, unfortunately, that occurred in only 20 percent of 
instances; that 80 percent of the market, everyone has some 
type of blemish, and that is where the disparities arose.
    And if I had known we were going to talk about this, I 
would have reread the study; it was 16 years ago. But----
    Mr. Scott. Well, let me ask you this. When you talk about 
the variables, what kind of variables would you be looking for?
    Mr. Carr. In terms of--oh, we would look for things like 
the credit score. Because when people say, ``Income is not 
determinative of whether you should receive a loan,'' they are 
absolutely correct. And no one has ever argued that. It is just 
that when you see the severe disparities, for example, when you 
see five times the loan-denial rates, you know that just tells 
you right off-hand, there are not five times the level of 
credit problems. But the problem is that we don't make that 
data available, the credit score, so that we can stop arguing 
about what is missing and start having rational discussions on 
what data is available to us.
    Mr. Scott. Let me ask just one, kind of, concluding 
question. If someone where to testify that, in terms of seeking 
housing, you sent out 500 pairs of testers, that they didn't 
find widespread discrimination in the United States, would you 
find that testimony credible?
    Mr. Carr. I would find it curious. It might be that the 
testimony is correct and the tests were conducted in an 
insufficient manner, in an inappropriate manner.
    Mr. Scott. But is there any way that it could have been 
conducted in an appropriate manner where you would not have 
found widespread discrimination?
    Mr. Carr. Not based on any evidence or information that I 
have seen about standard paired testing conducted by a range of 
institutions, from public bodies to private nonprofit agencies.
    Mr. Scott. Thank you.
    Thank you, Mr. Chairman.
    Mr. Conyers. Would you submit those studies you referenced?
    And I am sure Professor Liebowitz has written on this 
subject, on these related subjects, right?
    Mr. Liebowitz. I am not sure what you mean by ``related 
subjects.''
    Mr. Conyers. Well, have you written at all?
    Mr. Liebowitz. Yes, I referenced a paper that I wrote in 
1998. I am working on something now that will talk about the 
subprime type of problems. But the reality is that is not my 
main specialty. Most of the papers that I write are not on 
mortgage discrimination.
    Mr. Conyers. Well, I am fascinated by them, I am sure, if I 
read them. But we are on the other subject. You write about it 
sometimes as well.
    Mr. Liebowitz. The other subject being? I mean, I have 
written about mortgage discrimination.
    Mr. Conyers. Well----
    Mr. Liebowitz. And----
    Mr. Conyers [continuing]. Don't you think that would excite 
our imaginations, if we read it?
    Mr. Liebowitz. Oh, yes, I recommend you read it.
    Mr. Conyers. Well, why don't you submit it?
    Mr. Liebowitz. I did submit it.
    Mr. Conyers. Well, okay. Have you got any other written 
works that we might enter and put in the record, as well?
    Mr. Liebowitz. On that topic, just an op-ed or two, which I 
think are also submitted.
    Mr. Conyers. Well, let's make sure they are.
    You know, you fascinate me as a modest writer who keeps 
secret some of his best writing, and we have to make sure we 
have to get it out.
    When is this study you are writing now, currently, coming 
out?
    Mr. Liebowitz. I am supposed to have it done by the end of 
August.
    Mr. Conyers. Does it relate to the subject matter that 
brings us all here this afternoon?
    Mr. Liebowitz. Yes and no. It is----
    Mr. Conyers. I will take the ``yes'' part. That is all I 
need. [Laughter.]
    That is good.
    Mr. Liebowitz. Okay. That is fine.
    Mr. Conyers. Would you send that to us too?
    Mr. Liebowitz. Yes, I will.
    Mr. Conyers. I thank you very much.
    We turn now to Mel Watt, who not only is a distinguished 
Member of this Committee but Chairman of the Oversight 
Subcommittee of the Finance Committee, on which he sits.
    Mr. Watt. Thank you, Mr. Chairman. I am glad you started 
with Mr. Liebowitz, because I was going to give him an 
opportunity to clarify what he was saying in his statement.
    I happen to agree that the study that was done by the 
Boston Fed was probably unreliable. I don't know whether it was 
outrageously unreliable. Unreliable is unreliable.
    Mr. Liebowitz. I said----
    Mr. Watt. What I have trouble with is the next sentence of 
your testimony, which says, ``There was no basis for a claim 
that minorities were discriminated against by mortgage 
lenders.'' And I am hoping that you will clarify that you mean 
no basis in the Boston Fed study.
    You can't possibly be sitting here representing to this 
Committee that you believe that there is no basis for claiming 
that minorities are discriminated against by mortgage lenders. 
Or can you?
    Mr. Liebowitz. I certainly wouldn't say that there are no 
individual members of minority groups who are not discriminated 
against. I would not say that.
    Mr. Watt. Well, I am asking you, is your testimony that 
there is no discrimination by mortgage lenders against 
minorities? That is the question that is--and that, I believe, 
could probably be answered with a ``yes'' or ``no.'' Either 
that is your testimony or it is not your testimony. Is it your 
testimony?
    Mr. Liebowitz. My testimony is that, in aggregate, for the 
United States in the early 1990's, which is the time period I 
am referring to in the study, that there was no evidence that 
there was overall mortgage discrimination against minorities in 
the United States.
    Mr. Watt. And what period of time was that?
    Mr. Liebowitz. Early 1990's.
    Mr. Watt. What period of time is the early 1990's?
    Mr. Liebowitz. In particular, I think we are talking about 
1992.
    Mr. Watt. So you surveyed the whole industry, you are not 
just talking about the Boston Fed study, you are talking about 
the whole industry you surveyed. And your testimony to this 
Committee is that, in the early 1990's, 1990 to, what, 1993, 
that there was no discrimination by mortgage lenders against 
minorities?
    Mr. Liebowitz. No, I am saying that there was no evidence 
that there was aggregate discrimination. By that, I mean----
    Mr. Watt. Okay. All right.
    Mr. Liebowitz [continuing]. A statistical analysis, where 
you take a look at mortgages and you carefully examine whether 
or not they appear to be turned down at a greater rate for 
minorities than for non-minorities after you have controlled 
for enough variables. The one thing----
    Mr. Watt. Okay. You have answered my question. I think your 
testimony has gotten to the point that it is so incredible that 
I am not going to waste any more time with it. I mean, I was 
trying to give you an opportunity to clarify what you were 
saying, but let me just go on to somebody who makes some sense 
here.
    What are you finding--what is everybody else in the real 
world finding in your experience about whether there is 
discrimination in mortgage lending, rental, homeownership? Is 
there anybody else who joins in this opinion? Steering? Anybody 
else who wants to opine on this, that aligns themselves with 
Mr. Liebowitz's opinion, first of all? And then, if not, maybe 
you all could tell me what your opinion is on the same issue.
    Mr. Carr, I will start with you and just come down. I won't 
ask any more questions. But I don't want to leave, as you 
noticed in the first--even before the witnesses started, I 
don't want to leave any indication in a hearing record that 
goes unrefuted or uncontradicted, as the case may be.
    Mr. Carr?
    Mr. Carr. Thank you very much, Congressman.
    I just want to reiterate that we did publish a 
significantly refereed article on the Boston Fed study, and we 
found it to be a credible study. And so I will submit that for 
the record.
    Second of all, we have found in our paired testing studies 
significant levels of disparity in rental and homeownership 
whenever any studies that I have seen that are credible studies 
include that.
    We also operate a Homeownership Sustainability Fund, in 
which we help consumers who are dealing with problem loans as a 
result of subprime, predatory and/or loans that contain 
otherwise unfair and deceptive terms and practices. And we find 
routinely in those files all sort and manner of deceptive 
practices in those loans.
    Again, those would not be considered statistically 
significant in terms of being, you know, something you could 
report on nationally as a national study, but they are good 
anecdotal evidence that reinforces the best information that we 
have that is unfortunately the HMDA data, which we report on.
    And we have a study that we are very proud of called, 
``Income is No Shield,'' where we show that income really 
doesn't protect consumers of color in the housing market. In 
fact, that we find even greater disparities as income increases 
for minority households.
    And what we would encourage and urge is that Congress 
consider expanding the data variables that we have available, 
so that, again, we don't debate----
    Mr. Watt. As you know, Mr. Carr, I am on your side of that. 
We are strong advocates of that. And perhaps we can give Mr. 
Liebowitz some more statistically verifiable information; then 
he can perhaps reach a different conclusion.
    Ms. Smith? And then I will get Ms. Sangree and Ms. Wiggins.
    Ms. Smith. Undersecretary Jack Kemp, he authorized----
    Mr. Watt. He was a Republican, wasn't he?
    Ms. Smith. Yes, yes.
    Mr. Watt. Okay. Just trying to be bipartisan here.
    Ms. Smith. Me, too. We received a grant through HUD to do 
testing, mortgage lending testing, in eight cities in the early 
1990's. And we found high rates of discrimination against 
African-Americans and Latinos in those eight cities.
    If you look at from the mid-1990's to just 2 years ago, the 
Department of Justice brought red-lining lawsuits against some 
incredibly large lenders in Grand Rapids, Detroit, Chicago, and 
Gary, Indiana.
    And last November and December, when we realized the credit 
crunch was coming in and the underwriting guidelines were 
tightening up, I thought back to my days in 1975 forward in 
fair housing and I saw, whenever there was a credit crunch, as 
there was in the early 1980's, who was squeezed. And that was 
women and people of color.
    So we did some testing of banks in several States. And we 
found that, while the Latino, African-American and White 
testers were all given information about loan products, the 
Latino and African-American testers were referred to the 
highest-cost loan product, the highest interest rate, the 
highest downpayment.
    And in some instances when the African-American homebuyer 
went in, the banks said, ``The person who deals with mortgage 
loans is not here today. She is on vacation, and no one can 
help you.'' When the White tester came in the next day, she was 
still on vacation, but they made sure someone helped that White 
tester get information.
    Mr. Watt. Not statistically reliable, according to Mr. 
Liebowitz, I am sure.
    Ms. Sangree?
    Ms. Sangree. I would just add that, in the field of the 
subprime lending that the Baltimore City lawsuit is concerned 
with, although there isn't publicly acceptable data, as Mr. 
Carr is urging should be made more available, we have several 
snapshots that are provided principally through litigation.
    And if you look at page 30 of the Wells Fargo complaint 
that is attached to my written testimony, you will see a 
citation to a case from Philadelphia where, through discovery, 
they had access to the loan documents of borrowers. So they 
were able to look at credit scores and all of the other risk 
factors. And the conclusion in that case was that borrowers 
residing in African-American neighborhoods pay more than 
comparable non-African-Americans and residents of communities 
in which White people predominate.
    We see similar patterns in Baltimore City. We have not had 
access yet to the discovery in our lawsuit, but we will be 
having that.
    And in the meantime, as I mentioned in my oral remarks, the 
Annie E. Casey Foundation, based in Baltimore, is doing 
research in 13 cities across the country, including Baltimore. 
In Baltimore they are focusing on a cluster of neighborhoods 
encompassing 20,000 people. They have a contract with Experian, 
and their researcher is looking at not just income data but 
also credit scores and other risk factors. And the conclusion 
he has made in these Baltimore neighborhoods is that there is 
an over 15 percent racial disparity for refinances in 2006 and 
a slightly lower disparity in home-purchase loans.
    So we are getting these snapshots of the statistics that 
show that, you know, the HMDA data that shows vast racial 
disparities in lending practices can't be explained away by 
differences in credit scores or other risk factors. And if HMDA 
data included more of that data, we could see it on a 
nationwide scale as well.
    Mr. Watt. I can tell Mr. Liebowitz is not convinced yet.
    Ms. Wiggins, perhaps you can help.
    Ms. Wiggins. You have great faith in me, Congressman. I 
don't know that I will be the one to----
    Mr. Watt. He is turning red, though. [Laughter.]
    So his body language is changing a little bit.
    Ms. Wiggins. The Lawyers' Committee generally does not 
engage in this kind of testing, but I would agree with what has 
been said so far. I always quote and cite the NCRC study that 
Mr. Carr referred to. The Center for Responsible Lending has 
also done good studies on this as well. And I would be happy to 
talk with the staff about how they could get copies of those 
studies.
    Mr. Watt. And Mr. Liebowitz, make sure you send them to him 
too.
    Ms. Wiggins. Yes, I will make sure I CC him on that. 
[Laughter.]
    I also just wanted to underscore the point, the need to 
have funding through the FHIP and FHAP programs, so that the 
statistical data would be available.
    One of the things that I highlighted in my written 
testimony on pages nine and 10 is that, when the funding for 
that kind of testing is unavailable, that disparate impact 
cases aren't able to be filed.
    And as NFHA pointed out in their Fair Housing Trends 
Report, about a quarter of those centers have had to either go 
down or shut off some of their enforcement activities or just 
close their doors all together, one of which was a powerful 
center in North Carolina, where I know you are from.
    Also, the FHIP and FHAP agencies accounted for 91 percent 
of all fair-housing complaints that were filed in 2007. So I 
wanted to use this opportunity to just underscore those.
    Mr. Watt. Thank you.
    Mr. Liebowitz, we are working to try to get the data set 
expanded on the HMDA. We vigorously believe that it should be 
expanded so that verifiable statistical studies of the kind 
that you say don't exist can exist. Although a number of people 
have jumped across that threshold substantially. I am sure that 
in your heart of hearts you don't believe that discrimination 
doesn't exist.
    Mr. Chairman, with the earlier witnesses, I alluded to the 
fact that Representative Al Green has a bill that he has 
introduced that would enable HUD to do paired testing using 
other agencies beyond what the Department of Justice is doing. 
And I wonder if it would be appropriate to perhaps allow him, 
since he came and has a very strong interest in this area, a 
couple of minutes to question the witnesses.
    Mr. Conyers. Yes, I am interested to know how it would help 
us deal with the issue that is in front of us.
    Mr. Watt. I ask unanimous consent that he be allowed to ask 
questions of this witness panel.
    Mr. Green. Thank you, Mr. Chairman.
    And I thank Member Watts for his kind assistance. He is the 
chairperson, of course, of our Oversight Subcommittee, and he 
does a stellar job.
    And, Mr. Chairman, your reputation is far and wide, and it 
is always good. And I am honored to sit with you today.
    If I may, I will move right to what I consider the bottom 
line, which is the testing. Is it agreed upon by all present--
and to respond, I would beg that you kindly extend a hand into 
the air. This is comparable to what we call voir dire, or 
``voir dire,'' in a court, depending on where you are from. 
[Laughter.]
    I am from Texas. We say ``voir dire.'' Which is a French 
term that means ``to speak the truth.'' So mendacity would not 
be appropriate.
    If you agree that testing is the best methodology by which 
to ascertain the empirical evidence necessary to prove 
discrimination, would you kindly extend a hand into the air if 
you think it is?
    Okay. We have two people, three people----
    Ms. Sangree. I am agnostic.
    Mr. Green. Okay. Well, permit me to ask, because I am 
looking for something better than testing. If you have a 
methodology that is better than testing to acquire the 
empirical evidence, would you kindly help me to understand that 
methodology?
    Ms. Sangree. Well, I am just not an expert in rental 
discrimination. I think for rental discrimination that 
certainly testing would be the best, and probably for home 
purchases. In the lending environment, I think access to the 
data would probably be enough. You wouldn't even need to do the 
testing.
    Mr. Green. One of the reasons why, as I understand it, we 
don't have more testing in the area of lending is because we 
have laws that prohibit one from fabricating a story so as to 
perfect testing. If I am incorrect, would you kindly help me?
    Ms. Smith. No, you are correct.
    Ms. Sangree. Yes.
    Mr. Green. Okay. So we really have not had a fair 
opportunity to apply testing to the lending environment. Is 
that a fair statement?
    Ms. Smith. We have had the opportunity just at the inquiry 
but not through the application process.
    Mr. Green. Exactly, because of the application itself----
    Ms. Smith. Yes.
    Mr. Green [continuing]. You cannot fabricate.
    Ms. Sangree. I want to amend my vote and say, yes, testing.
    Mr. Green. Ah, thank you. [Laughter.]
    So now I have--for clarity purposes and because Watts is a 
great lawyer and he will remind me that I did not properly 
address the record, so would you kindly raise your hands into 
the air one more time if you agree?
    Okay. Let the record reflect that all but Mr. Liebowitz--is 
that correct? You did not raise your hand.
    Okay. You may lower your hands.
    Mr. Liebowitz, if you would, kindly explain to me a 
methodology that is better than testing in the area of home 
purchasing, for example, or leasing--we will just take these--
that is better than testing in acquiring the empirical 
evidence.
    Mr. Liebowitz. If you want to talk about rental or home 
purchasing, it might very well be the case that that is the 
best method for one-on-one, individual, in every instance 
finding out whether----
    Mr. Green. Thank you. Let me reclaim my time quickly and 
ask this question, Mr. Liebowitz.
    Mr. Liebowitz. I thought you were talking about----
    Mr. Green. No, no, I have one more question. I accept your 
answer. One more question, please, sir.
    In the area of testing, with reference to purchasing a 
home, have you had any experience in this area in terms of 
acquiring intelligence, meaning information, and synthesizing 
additional thoughts from the data acquired? Have you had any 
experience with this?
    Mr. Liebowitz. I have not had any direct experience with 
testing, but----
    Mr. Green. Well, it is testing we are talking about.
    Mr. Liebowitz. But if you let me----
    Mr. Green. No, no, no. It is testing we are talking about.
    Mr. Liebowitz. Can I answer the----
    Mr. Green. I will, but only if we finish this. I only have 
5 minutes.
    So you have not had experience with testing in this area. 
Would you conclude that the methodology that you have utilized 
could have benefited from testing, to some extent?
    Mr. Liebowitz. It is conceivable it could have. But the 
problem with testing is you test some particular location, and 
the advantage of a database is it covers everyone, or at least 
what you are hoping is a large, representative area. And----
    Mr. Green. So would you agree, sir--if I may, if I may, if 
I may. Would you agree that--are you a lawyer?
    Mr. Liebowitz. No.
    Mr. Green. Okay. Would you agree that in court the 
empirical evidence that we seek probably will be derived from 
testing as opposed to the statistical analysis that you 
performed?
    Mr. Liebowitz. I can't talk about what would be----
    Mr. Green. All right. All right. I appreciate your answer.
    Finally, let me say this. This bill, H.R. 2926, for those 
who are unfamiliar, provides about $260 million over 5 years 
for FHIP, for the Fair Housing Initiative kind of testing that 
you have been talking about.
    And for those who would say $260 million is a lot of money, 
I agree; it is almost what we spend on 1 day in Iraq. So it is 
a lot. But it is needed. And my hope is that we would be able 
to acquire that type of assistance from our Congress.
    A final question before I again thank the Chairman and 
yield back is this: In performing the testing--I think you have 
answered the question--but in performing the testing, if you 
don't have someone who is willing to take the evidence and use 
the evidence, perhaps even in court, how much value is the 
evidence--or how do you find value with the evidence?
    What do you do with it when you cannot take it to court or 
you find that you have an agency that is not cooperating to the 
extent that it deems it necessary to pursue and prosecute? What 
are you doing with the evidence?
    I will just start with the gentleman, Mr.--and I am sorry, 
I can't see your name from here, but I can look here and find 
it. This is Mr. Carr?
    Mr. Carr. Yes.
    Mr. Green. Okay, Mr. Carr.
    Mr. Carr. With the evidence that we find, we bring actions 
against a range of mortgage market participants, and we have, 
ranging all the way from investment banking institutions to the 
credit rating agencies, all the way to individual lenders.
    So we act as expeditiously and as forcefully as we can. 
But, again, the level of funding that is available, the paucity 
of information, really limits our ability to perform.
    Which is why we have argued that what we really need is a 
new institutional structure, a Cabinet-level appointment for 
civil rights enforcement that will talk directly to the 
President and provide leadership in order to finally and once 
and for all break the back of discrimination in housing, in 
education, in health care, insurance, the credit markets and 
others. And until we have something that is broader and more 
powerful than that, we simply will be working around the 
margins.
    Mr. Green. Thank you.
    And, Mr. Chairman, I will yield back. I will just comment 
and make--someone mentioned that the way has been shown to us. 
I think that what we are doing with the Fair Housing Act is a 
part of the way, but the will still has to be there to enforce 
it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Conyers. Thank you all very much.
    Professor Liebowitz, what are you thinking about now? Have 
you been slightly moved by the discussion that has taken place?
    Mr. Liebowitz. No, I can't really necessarily say I have, 
even though some of the earlier discussion with some of the 
people on this panel moved me somewhat.
    The thing that I am picking up, however, which confirms 
something that was in my statement, was that people are 
convinced they know the answer before the analysis is done. And 
when you know the answer in advance, you are not really open to 
finding out what the truth might be.
    And I am picking up people saying they know what the answer 
is, and they just wait for some study to confirm what they 
already know. If that is the case, that is fine, but there is 
not much point in trying to, sort of, conduct studies to 
actually see what the story is.
    Mr. Watt. Would the gentleman yield for just a second?
    Mr. Conyers. Yes.
    Mr. Watt. And I am sure the Chairman can attest to this 
from a vantage point of years that exceeds my 62, 63 come 
August. But when you are Black and you live in a world for 63 
years, I don't need empirical evidence to tell me that 
discrimination exists.
    Now, do we need to verify that to a court? Do we need to 
test for it? Do we need statistical analysis? Do we need 
databases for that purpose? Absolutely. Do we need that kind of 
verification to make good public policy? Absolutely.
    But if you are detecting that I know that discrimination 
exists in the housing market, in the education market, in the 
criminal justice system, I would have to plead guilty to that, 
because it is based on years and years of personal experience. 
And so that I don't apologize for.
    We have to get good information and have it verified in 
every way that we can to convince, quite often, people like you 
who are reluctant to acknowledge that these things happen in 
our world and have happened in our world and continue to happen 
in our world. And I acknowledge that that is part of our 
responsibility in setting public policy and in winning cases or 
in operating in this world. I suppose you came here with some 
predispositions too based on your life experiences.
    So that is it. I just thought he needed to hear another 
perspective on that.
    Mr. Conyers. Well, Stan Liebowitz, you have become the 
focus of so much attention. I can't understand why. Learned, a 
writer, prolific, I suspect.
    Let me refer you to a book edited by James Carr. It is 
called, ``Segregation: The Rising Costs for America.'' And I 
recommend it to the whole panel.
    Listen to this. HUD's enforcement powers have, for various 
reasons, largely remained underutilized. In 2003, HUD brought 
only four racial discrimination cases, although it had received 
more than 2,700 complaints that year. Nearly 40 years after the 
passage of the Fair Housing Act, at least 3.7 million fair 
housing violations still occur each year.
    And it seems to me that it isn't--we don't have to base it 
on our individual experiences in America. It is there for 
everybody to see. We live in an essentially segregated housing 
pattern system in the United States of America.
    Is that a reasonable question to put to all of us here?
    Mr. Liebowitz. Are you asking me specifically?
    Mr. Conyers. Well, we always point to you to kick off the 
discussion.
    Mr. Liebowitz. I am not trying to deny that there is no 
discrimination. I am talking about one specific area, which is 
mortgage discrimination and particularly whether or not one 
gets a ``yes'' or a ``no.'' And at the time period when I was 
looking at it, there was no issue, there were no numbers on 
what the rate was.
    At that time period, the arguments that you could make for 
why somebody would discriminate, if you were going to be 
discriminatory in the mortgage business, would you do it, you 
certainly hurt yourself if you don't make a sale because you 
want to not allow somebody based on their skin color to get a 
mortgage.
    But we are talking about generally large institutions that 
were making mortgages that had been taking a terrible beating 
publicly from the yearly HMDA data coming out. They, I am sure, 
were concerned about their general track record and the 
publicity and, I would have thought, would have tried very hard 
to make sure that they weren't engaged in discrimination, even 
to the point of bending over backwards the other way to avoid 
any possible bad publicity.
    You also didn't have what you will find in a lot of rental 
situations, where it may be, because there is still a certain 
amount of racism that exists in the country, I am sure, of 
tenants who might not want other tenants to live there of a 
different color. And, therefore, somebody who is in charge 
wants to take that into account, or maybe they are racist 
themselves.
    But for the mortgage process, that doesn't really exist, 
because the person who is giving the mortgage doesn't live 
anywhere, doesn't have to worry about what any of the other 
mortgagees out there think, because nobody knows. The neighbors 
may not like it if somebody moves in, but they don't know 
necessarily who gave the mortgage.
    So the arguments for why you would see people engaging in 
racism occur much less so in this particular transaction with 
making the mortgages.
    And then, given all the negative publicity, I am willing to 
accept the proposition that there may not have been any 
mortgage discrimination going on in the early 1990's, and, 
therefore, I would like to see a test. And I don't see any 
evidence that there was.
    And unfortunately--I am in agreement with you when you say 
you want to get more data. More data would be good. More data 
is always better than less. And any time you can get more data, 
I think it is good. In the case of the mortgage discrimination, 
the data from HMDA is insufficient, as almost everyone 
understands.
    There was this one attempt by the Boston Fed to increase 
it, and we don't have other attempts where we could take a 
look, for instance, how this thing was done. And it was done--
the mortgage lawsuits that did it in a flawed way. And it was 
unclear that you could ever clean those numbers up properly.
    When I used the term ``egregiously bad,'' I wasn't talking 
about their study so much as the numbers. Somebody put those 
numbers in that database and didn't look at what they were 
doing, and there were all sorts of crazy things going on that 
couldn't possibly be correct: negative interest rates, 
mortgages that were sold in the secondary market but that were 
disapproved--and you can't sell a mortgage that hasn't been 
approved--and those types of things. And there were hundreds 
and hundreds of those problems.
    That was the basis of the problems. And that is the only 
thing we have to hang this whole big question on.
    Mr. Carr. Mr. Congressman, if I could just comment really 
quickly on two quick statements that were made.
    One was the idea that somehow if you are selling these 
loans into the secondary market into investors who don't live 
next-door, the likelihood of discrimination is less, one could 
argue completely the opposite. The fact that you don't have to 
personally endure what happens when you provide that person 
with a predatory loan could, in fact, potentially enhance 
discriminatory practices. And one of the reasons that many 
argue that the subprime crisis got to the magnitude it is today 
is because those loans were shipped off to unknown investors 
and the result happened concentrated in minority neighborhoods.
    The second argument about the HMDA data, I don't want to 
make it sound as if the HMDA data is to be dismissed. There is 
no publicly available credit-related data that reinforces or 
supports the levels of disparity in lending by race and 
ethnicity in the HMDA data. The question is, to what extent, 
and can you put a specific statistic on it, et cetera, et 
cetera. But, in fact, the HMDA data do show wide disparity of 
treatments that cannot be explained by publicly available 
credit data.
    Mr. Conyers. Ms. Smith?
    Ms. Smith. Thank you.
    Mr. Liebowitz implied that people don't act against their 
own economic interest, that, you know, if you are selling a 
home, you are going to sell it to anybody because you want that 
commission. If you are doing a loan origination, you are going 
to give it to anybody because you want that commission.
    The fact of the matter is, that is simply not true. And I 
will send him the report that the Urban Institute did based on 
our eight-city testing investigation of hundreds of lending 
tests in these eight metropolitan areas.
    People think and economists often say to me, you know, it 
is irrational for people to act against their economic 
interest. And I have to remind them that discrimination is 
irrational, and they act that way anyway.
    Mr. Conyers. Well, I have to submit that people also act 
against their political interests. I have noted that in the 
course of my career. And so I am not shocked to hear you say 
that they act against, sometimes, some, against their economic 
self-interests.
    Mr. Carr. Congressman, if I could, just one comment very 
quickly. When I say there is no publicly available credit data, 
it is not that there aren't studies that have shown that 
minority households have higher credit challenges than do non-
Hispanic, White households. It is that the disparities in their 
credit profiles don't in any way relate to the extreme 
disparities in the HMDA data. So there is data; you can 
actually compare it, and they don't make sense.
    Ms. Wiggins. May I add just a few more points?
    I wanted to just speak as the advocate for the folks who 
are left to bridge the gap when Government agencies 
underutilize their authority and the obligations under the act. 
That there is a chipping away of the breadth, of the complete 
range of what is possible under the Fair Housing Act.
    When HUD and DOJ doesn't file disparate impact cases, what 
happens is what we are seeing now in the court system. Just 
last month, the Supreme Court ruling from Ledbetter v. Goodyear 
Tire was applied to a design and construction case. This was 
the 9th Circuit. And they said that the discrimination would 
have occurred when the design and construction of the 
noncomplying building was completed, not when the individuals 
with disabilities learned that the building was out of 
compliance. The Department of Justice was silent on that issue.
    Also, we are seeing a chipping away of the act as to 
discriminatory acts that occur after the sale contract, or 
rental contract of housing units. There is a trend among two 
circuit courts of appeal and some district courts to outrightly 
reject any allegation of discrimination that takes place after 
those instances, saying that it is not within the Fair Housing 
Act.
    So I just want to reiterate that, as I was the one who was 
asked to testify about the burden on the community when Federal 
agencies don't fully enforce the Fair Housing Act, that this is 
part of what happens.
    Ms. Smith was modest in part of her earlier testimony. She 
was talking about how her organization has filed a suit against 
a real estate agency in Detroit. What she got in exchange for 
that is a suit that we are representing her in. She is now 
facing court action because of statements she has made about 
that case. And the Lawyers' Committee, along with some 
brilliant people at Fried Frank, are representing her and the 
National Fair Housing Alliance in that. And I just wanted to 
say that is another deficit when the Federal agencies do not do 
what they are supposed to do.
    I just wanted to briefly address Mr. Liebowitz's comments. 
What I hear is a different orientation, certainly, from where I 
come from. That discrimination occurs when only it can be 
proved as intentional, when someone uses a racial slur, when 
someone says, ``We don't want those people here,'' or, ``Sell 
to everybody but them,'' and we draw a red line around a 
certain neighborhood.
    But the disparate impact, pattern-or-practice cases are out 
there. We are bringing those cases. Other advocates in the fair 
housing community are bringing those cases. And DOJ and HUD 
should be bringing those cases too.
    Mr. Conyers. Well, let me, before I recognize the Ranking 
Member, let me read this passage again.
    ``In 2003, HUD brought only four racial discrimination 
cases, although it received more than 2,700 complaints that 
year. Now, 40 years later after the passage of the Fair Housing 
Act, at least 3.7 million fair housing violations still occur 
each year.''
    Now, those all don't have to be racial; there could be 
other reasons for them.
    And so, Professor Stan Liebowitz, we come back to the 
original question that we started off with. Isn't it apparent 
to you that there are serious violations of the act that we 
celebrate, that was passed 40 years ago, in the millions? And 
this is annually.
    So might we reach some agreement on the seriousness of the 
problem based on these statistics?
    Mr. Liebowitz. I have no idea of the provenance of those 
statistics. I have been talking about discrimination in the 
origination of mortgages. And I don't think that is what those 
statistics are related to. My guess is they are related to 
renting and other activities.
    But I have no idea where that number comes from; I am 
unfamiliar with it. So I don't know what to make out of that 
number.
    My expertise is more narrow. It is really just with the 
mortgage origination. And I am not aware of any number that 
indicates there is a great deal of discrimination going on in 
that market. So I don't think we are getting any closer right 
now.
    Mr. Conyers. Well, let's set my statistics aside for a 
moment. Does your visual knowledge, from what you have seen of 
the way communities in America are laid out in every part of 
the United States of America lead you to suspect that the 
geography of this country, we somehow always seem to be ending 
up in communities that are distinguishable by race?
    Mr. Liebowitz. I certainly agree with that. The exact 
reasons are not completely clear, because you find that, to 
some extent, on college campuses as well. And on college 
campuses, the students are choosing on their own to live and 
act segregatedly. I think that is very unfortunate, but that is 
what you see there.
    So there is no doubt--I am certainly not going to argue 
against history, that, you know, there has been a great deal of 
discrimination in the past. And it was a terrible thing. I 
don't doubt that discrimination still goes on in terms of 
activity. In the origination mortgages, I don't see any 
evidence to that.
    And I think there are other parts of society where there 
may not be as much discrimination going on. I think the country 
has undergone a great change in my lifetime. And, thus, I have 
no idea about the 3 million number that you keep bringing up.
    So I am not going to deny that discrimination is going on 
and that racism exists. I would say it is, in my mind, really 
quite small, that most Americans are very open-minded, much 
more than they used to be. And there are people who try to go 
out of their way to, sort of, be open-minded and give everyone 
a fair chance. And I think that largely describes a great deal 
of the country right now.
    Mr. Conyers. Well, I hear you implying that it may be the 
kind of self-segregation on university campuses is somewhat the 
same as what is going on in housing patterns in the United 
States. Is that a fair assumption?
    Mr. Liebowitz. No, because there is one other difference, 
and that is there is going to be segregation by income levels, 
because different parts of cities have different style of 
houses. So that is going to occur.
    Within income levels, segregation still occurs. And that 
would seem to be something that you wouldn't expect to 
necessarily happen.
    And there I have no doubt that, in the past, it was largely 
due to racial discrimination. But I am not sure now that that 
is really all that much of it. I think it may be that it is 
what we are seeing that people can move and they want to be 
with people with whom they feel more comfortable.
    Mr. Conyers. What about school patterns, which frequently 
follow housing patterns? I don't claim you to be an expert 
here, but it is fairly observable that, as a result of housing 
segregation, you end up with the resegregation of the school 
system in America. Does that comport with what you have seen 
and heard and read about this subject?
    Mr. Liebowitz. It is certainly my understanding. I sent my 
kids through public school. There were attempts to try to 
integrate by creating magnets and whatnot, not all that 
terribly successfully. That is a very difficult problem.
    Mr. Conyers. Could I recognize the Ranking Member now, Mr. 
Franks of Arizona?
    Mr. Franks. Well, thank you, Mr. Chairman.
    My remarks here are more contemporaneous than anything 
else, because I have to apologize that I couldn't be here for 
all of your testimony. And I was out trying to save the world, 
and that is the truth. But this is a challenging situation 
here, and if I could just kind of lay the premise from my own 
perspective.
    I think with all of my heart that everywhere we find 
discrimination, whether it be systemic or personal, individual 
discrimination, we as a society have a responsibility to crush 
it. I think it is an evil that goes against the dignity of 
humanity of every individual.
    I do associate myself with Mr. Liebowitz's comments, 
however, in that I believe that the whole mortgage crisis is 
not predicated on discrimination. There may be elements there 
that are hard to divine in all of the challenges that we have, 
but I think there is a great point that he made that related to 
some of the income levels here.
    And this is going to hard, and I will probably say 
something controversial, and I don't mean to, but I am going to 
go ahead. I think that the tragedy in this country where we had 
racial discrimination was such a mark on our hearts and on our 
history that there is just no way for us to adequately address 
that and, you know, to really be able to express how tragic 
that was. Because discrimination, at its very core, is saying 
that because someone is different that somehow they are not a 
child of God.
    And if there is anything that this country is fundamentally 
founded on, it is that we hold these truths to be self-evident, 
that all men, all human beings, are created equal. That is who 
we are as Americans. And where we step from that, it is a great 
tragedy. And I believe we continue to step from it in many 
areas of society today.
    But in this particular situation, I believe that we are 
aiming at the wrong cause, in this particular Committee. And I 
say that with great respect for the people who disagree with 
me.
    But I also believe something else happened. And maybe this 
is not the right forum to present it. But I think in the Great 
Society programs, that however sincere they may have been, with 
a lot of these sectors of our society, in many cases the 
minority sectors of our society, brought a dependence upon 
Government that did not accomplish the ultimate goal, which was 
to see all sectors of society come to be equal in every way.
    And I think, unfortunately, that it has created such a 
dependency that it was depressed the income levels. And I think 
that somehow it is hard for us to face those things, because, 
you know, we don't want to look at something like that 
directly. But I think, unfortunately, that has been the case.
    And we have to have equal opportunity and do everything we 
can to be color-blind. And I will say this. It was mentioned 
about schools. The most integrated institutions in America are 
faith-based institutions, and certainly that applies to 
schools. There are probably no more integrated schools in 
America than the local faith-based private schools, because 
they see everyone there as a child of God and equal in his 
sight and equal in the sight of all human beings.
    And until we as a society, I believe, embrace that and say 
we are going to see each other equally and we are going to act 
as brothers and sisters, but we are not going to institute 
failed policies of a socialistic nature that have proven 
throughout history to hurt the very people that it purports to 
help.
    Now, again, this is a hard place to bring a subject like 
this, and I know that I am so outnumbered in this room. But I 
still say it with absolutely all the respect and love in my 
heart for everybody in this room. And I hope that somehow we 
could delineate the difference between discrimination and bad 
policy.
    And the mortgage crisis was caused by greed. It was caused 
by mortgage brokers that told lenders things that weren't true. 
It was caused by people who looked at houses and thought, well, 
I can make money by appraising this house for more than it was. 
And these are things that we should be going after, because 
that is what caused the problem.
    And, in the meantime, we should go after discrimination 
wherever it presents itself but not tie the two together unless 
they deserve to be tied together.
    With that, Mr. Chairman, I yield back. I think I am going 
to take a run for it, okay?
    Mr. Conyers. I think we appreciate your comments, and I am 
glad that you were able to return.
    Attorney Wiggins, you left us with a choice to be made in 
your presentation. You said there were two strategies, and you 
were hoping that the right one would be chosen. Would you 
redescribe what choices were before us and which one of them 
you might prefer yourself?
    Ms. Wiggins. Thank you. What I was saying was that we are 
at odds, the advocates, those of us in the fair housing 
community, we are at odds with the Federal agencies who are 
supposed to be enforcing this broad act. And we both can't be 
right.
    I was saying that either those of us in the fair housing 
community are right and that we should safeguard the 
protections, the full range of arsenals that are afforded to us 
under the act. Or the Federal agencies are right, and as the 
lack of using their authority chips away at the breadth of the 
act is okay because there are folks like me and the other folks 
on this panel who will pick up the slack.
    My request is that the Members of this subcommittee, in 
particular, as well as other Members of Congress would use the 
full force of their authority and influence to ensure that we 
all have the ball picked up, that it is not just the people in 
the communities who have to bridge this gap, but that those 
agencies who have obligations and resources under the Fair 
Housing Act to do everything they are supposed to do within the 
full force of their authority and influence to ensure that all 
of us who are protected under that act are served by their 
Government.
    Mr. Conyers. The Attorney General recently declined to form 
a task force that deals with parts of this subject. Does anyone 
want to make any comments about that?
    Ms. Smith?
    Ms. Smith. I have been investigating mortgage lending 
discrimination since 1977. And when the subprime market came 
about and grew exponentially from 1992 to 2002, we saw the 
inflated appraisals happening.
    I actually met with the largest company at the time who was 
selling all of the appraisals to the lender. And I said to him, 
do you understand that you are churning these inflated 
appraisals, that when an unscrupulous lender and appraiser push 
it into the system in a neighborhood, then other lenders don't 
understand that it is just artificially increasing the value of 
the property and that you need to do a better job about this?
    And his response to me was, ``I am just taking public 
records. So I am not discriminating.'' And I said, ``I 
understand you are taking public records, but you have some 
responsibility to do due diligence to see that those appraisals 
are accurate.'' Then Fidelity bought them, and it kept the 
churning.
    But I was looking at this from the 1970's forward, because 
I saw this happening first in the African-American community. 
The lenders who saw the high equity that, particularly, senior 
citizens had in their homes and ways to strip that equity. And 
North Carolina passed the first anti-predatory lending law to 
address this.
    The Attorney General should look at not just loan 
origination but underwriting guidelines that were directed to 
have higher costs for people of color in neighborhoods.
    For example, we filed a lawsuit against United Guaranty, 
the fourth-largest mortgage insurer in the United States, in 
1988 because they have limits. If your home--I am from Toledo, 
Ohio, originally, so when I say to you that you had--and you 
know this, Congressman, because you are from Detroit. You can 
have beautiful homes that are under $40,000, three-bedroom 
frame homes with a garage, well-maintained homes.
    And we uncovered that the mortgage insurance companies had 
a minimum insurance amount, so that if you were putting less 
than 20 percent down on your property, they were denying 
mortgage insurance on the house, which then made the lender 
reject that loan, which made them then go to a hard-money 
lender to get a loan.
    Now, this was in the 1970's. We saw it replicated in the 
1980's, the 1990's, and now today, that the lenders just kind 
of twist how they are making these loans and what kind of 
activities they are going to engage in to make it a higher-
priced loan in a neighborhood of color or a higher-priced loan 
to a senior citizen regardless of their race, a higher-priced 
loan to women.
    The Justice Department did a great job with the Long Beach 
case back in the mid-1990's. They were first to understand with 
that case, in Decatur Federal, that there was a subprime market 
and how it was acting.
    And I think if the Attorney General would look back at 
those cases in the early 1990's and the mid-1990's and start 
looking at all the players in the mortgage lending market and 
see what their role was--and then we have to jump to Wall 
Street, because Wall Street paid a premium to lenders to push 
the exotic loans, the adjustable rates, the 327s, 228s. It paid 
a premium.
    And the lenders told me this. You know, I didn't make this 
up. They came to me, and they said, ``Shanna, you want to 
criticize us for pushing ARMs, but they pay us more to push 
these loans.''
    And we all know--some of us are old enough to know that 
when the adjustable rate loans were first made, the 525s, it 
was for a niche market. It was for people who had increasing 
income and lived in neighborhoods where the property was 
appreciating pretty rapidly, so that it wasn't a risky loan. It 
was made for that particular demographic. It didn't include me, 
but it included a lot of other people.
    But then they pushed this exotic loan into the full market 
and onto people who just didn't know that these loans weren't 
good. They sold it to the real estate agents, who said, ``You 
know, you tell me you are qualified for a $200,000 home, but I 
can get you into a $300,000 home, and here is your payment.''
    Lenders would say and real estate agents would say to 
people, ``What do you want your payment to be?'', rather than, 
``What can you really afford in the long term?'' And they kept 
saying, ``Oh, you can just refinance it.'' And I listened to 
that for a little while, because I pay my bills on time, and I 
thought, ``Well, yes, you could just refinance.'' Then I 
realized, well, any time you buy your house, you know, you buy 
something for the house, or during that 2 years you might get 
another car, and your debt-to-income ratio has changed, so you 
can't necessarily refinance it.
    So I think if the Attorney General would look at all the 
players in the market, from the originator all the way up to 
Wall Street, who created these loan products--I mean, there is 
nothing wrong with an ARM. It was just marketed to the 
demographic that it wasn't intended for. And that demographic, 
then, is suffering.
    We are seeing middle-class White Americans now losing their 
homes left and right, but it was the African-American community 
who was first targeted. And many, many seniors who were 
African-American lost their homes years ago.
    And now we have to make sure--hold people accountable for 
what they have done to our communities and how they have 
stripped our wealth, our taxes, how it is hurting our schools. 
What is it going to do to grocery stores? What is it going to 
do to our whole economy?
    And if the Government, if the Attorney General holds 
somebody responsible, I think we can rest assured it won't 
happen in the future.
    Mr. Conyers. Mr. Carr, you get the last word.
    Mr. Carr. I just wanted to say that the subprime market 
meltdown, I agree with Congressman Franks that it is not solely 
an issue of discrimination. It was a lot of regional economic 
downturns; there was speculation on the part of a number of 
homebuyers. But there was a lot of unfair and deceptive 
practice, and within that unfair and deceptive practice was a 
lot of steering of minority consumers.
    I would just like to reinforce one of the things that Ms. 
Smith said also, though, which is the whole system--there was 
unfair and deceptive and/or just completely irrational business 
practices throughout the whole system.
    And if you just pick one point, the credit rating agencies, 
if those agencies had not been stamping on loans that were 
basically subprime junk bonds ``investment-grade'' and sending 
them out the door, millions of Americans would not be losing 
their homes now. And as we look at this issue, that issue has 
to be one that is focused on.
    A final thing, if I could just really quickly say I really 
appreciate the conversation, Congressman Franks, from you. It 
was very powerful and very moving for me.
    And I just wanted to say, one of the things that I think 
that we have to do better as a country is not necessarily focus 
on the past so much. I mean, I think the past is important to 
understand how we got here. But more important is our future.
    And the question is, where is America going to be in the 
21st century when, in fact, the communities of color are the 
fastest-growing populations and they are the most disconnected 
from opportunity and the ability to compete?
    And I think maybe that is an area where, if different sides 
of the aisle can, sort of, galvanize themselves around the need 
to really understand what is the competitive landscape for 
America if we don't succeed, then maybe we can purge a lot of 
the conversations about, well, it was this, it was that, it was 
that program, it was, you know, discrimination, it was bad 
Great Society, and focus on the fact that we have to move 
forward as one country and succeed.
    And then once we have built the resonance among the public 
to say, ``You know what? We have to succeed,'' then maybe there 
will be greater understanding of and appreciation for things 
like: collect better data. What is the harm in collecting data? 
If you are convinced that discrimination doesn't exist, then 
why object to collecting the data so we can measure it and 
monitor it and then, to the extent that we find that it 
actually exists, do what you have encouraged us to do here in a 
very, I think, powerful and moving way, which is to end it.
    But I don't believe that will happen unless America 
understands we are all on the same team. And we need to start 
acting that way and acknowledging it.
    Mr. Conyers. Well, Trent Franks and I are working hard 
within the Committee to rise above the natural politicization 
that comes out of the Federal legislative process. And I wanted 
to commend him.
    Mr. Franks. Thank you. And I just appreciate Mr. Carr's 
comments, sir.
    Mr. Conyers. Yes, I do too.
    Now I will close the hearing with a comment to the Chairman 
of the Crime Subcommittee in Judiciary. Because I haven't heard 
the term ``predatory lending'' raised since I have been in and 
out of the hearing. And I think that that requires some 
investigation.
    This is the Constitution Subcommittee, but it seems to me 
that there has been some predatory activity--you know, I 
believe in the system, but all these brokers, all these 
appraisers, all these banks, all these mortgage lenders, all 
these bundlers, all these Wall Street people--hey, look, I am 
cynically optimistic, to use the phrase, that somebody knew 
something about this besides the witnesses here this afternoon.
    Mr. Scott. And if the gentleman would yield, Mr. Chairman, 
we intend to inquire with the Justice Department as to whether 
or not some of the activities could have constituted fraud and 
misrepresentation, which contributed to the total collapse of 
this market. People have lost billions of dollars, and there 
appear to be misrepresentations and fraud all up and down the 
line. And we will be inquiring with the Justice Department what 
they are doing about it.
    Mr. Conyers. Well, I will rest more comfortably in my bed 
tonight, knowing that the Chairman of the Crime Subcommittee is 
going to be looking at this.
    And this has been a very interesting conversation. I thank 
you all for your attendance.
    We are dismissed.
    [Whereupon, at 2:21 p.m., the subcommittee was adjourned.]




































                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
